<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Cassidy, Shaheen, and Tester.

                    DEPARTMENT OF HOMELAND SECURITY

                     Customs and Border Protection

STATEMENT OF KEVIN K. MCALEENAN, DEPUTY COMMISSIONER


                opening statement of senator john hoeven


    Senator Hoeven. I will now call this hearing of the 
Department of Homeland Security Appropriations Subcommittee 
together. I would like to thank Ranking Member Senator Sheehan 
for joining me, also Senator Tester. Senator Cassidy will be 
back shortly, and I think there will be some others joining us 
as well. But I would like to thank both Deputy Directors for 
Customs and Border Protection (CBP) and Immigration and Customs 
Enforcement (ICE) for being here today. Welcome, gentlemen. We 
look forward to your testimony.
    We will have opening statements by those Senators that wish 
to make them, and then I will ask for your opening statements 
as well, and then we will proceed to 5-minute rounds for 
questions.
    I want to again welcome our witnesses, Kevin McAleenan, the 
Deputy Commissioner of Customs and Border Protection; and 
Daniel Ragsdale, the Deputy Director of Immigration and Customs 
Enforcement.
    Last year, the subcommittee appropriated almost $17 billion 
for CBP and ICE. Despite the many strategic investments we have 
made, the Department still needs to do more so that we have the 
metrics necessary to ensure the funds are being spent 
effectively to deliver mission results. So that is the first 
focus for me today. We will discuss how your agencies are 
measuring performance and using metrics to inform the resources 
that you have requested.
    By some measures, your agencies are doing less with more, 
but we must look at the challenges of immigration and border 
protection in a broader context and work to improve existing 
programs. In part, due to the President's Executive actions, 
ICE removed over 80,000 fewer aliens in 2015 than were removed 
in 2014, even as ICE's budget increased by more than $700 
million.
    Detention beds are a key tool in facilitating removal, yet 
the 2017 request cuts the number of beds by 3,000 from the 
34,000 beds funded in 2016. Yet your current average is over 
33,000 beds now, so how will that be adequate?
    CBP apprehended 149,534 fewer people crossing the border 
illegally in 2015, even as the CBP budget increased by $300 
million. This could be a good-news story of fewer aliens coming 
across. However, the Department of Homeland Security (DHS) has 
not been able to clearly tell the story, and that is why good 
metrics are essential. We need to be able to measure our 
performance on the border.
    If CBP catches people and ICE does not send them home, it 
undermines the existing law and sends the wrong message abroad. 
Instead of deterring illegal immigration, people will continue 
to try to come illegally.
    Second, ICE and CBP have significant roles in vetting 
travelers to the United States, and we hope to learn more about 
those activities today as well. These vetting operations have 
come a long way since 9/11, yet the threats we continue to face 
make these programs an essential part of the Nation's national 
security posture. We must constantly reassess and improve our 
processes. As one example, I want to hear about progress being 
made in implementing recent changes to Visa Waiver Program 
requirements.
    Last month, your agencies played pivotal roles in 
facilitating legitimate trade and enforcing our Nation's 
customs laws. Two weeks ago, the customs bill was signed into 
law. I worked to include a provision to ensure that our 
farmers, in this case our honey producers, receive the 
compensation they deserve from unfair trade practices by 
foreign competitors. Today, I look forward to learning more 
about when CBP will implement the changes in law, including 
those that benefit these farmers and domestic companies. And I 
hope to hear more about your agency's efforts in the whole 
trade enforcement area.
    In closing, I know that your officers and agents are 
working hard to carry out your important missions, and I want 
to be sure that they have the resources they need. To make the 
Department's 2017 budget work, we are going to be looking for 
savings where we can, and we will work with you as we move 
forward to write the best bill possible.
    With that, I turn to Senator Shaheen for any opening 
remarks you might have.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you, Mr. Chairman.
    And let me add my welcome to Deputy Commission McAleenan, 
and he is the Deputy Commissioner of the Customs and Border 
Protection agency. And I also want to welcome Deputy Director 
Ragsdale, who is the Deputy Director of the Immigration and 
Customs Enforcement agency. And I deliberately used the full 
names of those agencies because sometimes I think when we use 
the acronyms so often, we forget what they stand for.
    Along with the Transportation Security Administration 
(TSA), CBP is really the face of homeland security, and it is 
the agency with whom most of the American people interact on a 
daily basis. Its dual roles are to secure the border from 
illegal entry and at the same time facilitate legitimate trade 
and travel. And something that I think is not well known is 
that next to the IRS, the Internal Revenue Service, CBP is the 
largest revenue-raiser for the American Government because of 
the tariffs it charges and the duties it collects on legally 
traded goods and services.
    ICE is the second-largest investigative agency in the 
Federal Government and the Department of Homeland Security's 
primary investigative arm. Now, while most people envision 
detention and removal of undocumented aliens when they think of 
ICE, I think it is important to point out that ICE also plays a 
major role in protecting children from cyber exploitation, 
cracking down on human smuggling, trafficking, and money 
laundering, as well as preventing the export of dual-use 
weapons technology to international bad actors, some very 
important responsibilities.
    Over the past few years, both CBP and ICE have experienced 
difficulties in hiring that have resulted in more work being 
handled by fewer staff. For instance, CBP has had ambitious 
hiring goals for both its customs offers and border patrol 
agents, but these goals have yet to be realized. Similarly, for 
ICE this committee has provided additional funding to hire new 
investigators, but many of these positions remain unfilled 
years later.
    So I look forward to hearing more about the challenges that 
both of your agencies face as you try and aggressively increase 
staffing at both agencies.
    And before I close, I would be remiss if I did not mention 
one of the things that I have been working on that is critical 
to the work that both of you do, and that has to do with 
interdicting the flow of illicit drugs that come across the 
border. Senator Hoeven and I had a chance to go down to our 
southern border last spring, and I remember very clearly being 
in Laredo watching the CBP agents with their drug-sniffing 
dogs, who were at the border interdicting drugs and hearing 
from one of the agents that the drugs that come into the United 
States are going up the interstates through the middle of the 
country. They come up Interstate 35 and up Interstate 95, and 
that is how they arrive in New Hampshire and northern New 
England. So the work that you all do is very critical in that 
respect, and making sure that you have the resources you need 
is a priority of mine.
    So I look forward to hearing from both of you as you 
discuss the challenges and the budgets that your agencies are 
presenting today.
    Thank you, Mr. Chairman.
    Senator Hoeven. Thank you, Senator Shaheen.
    And now, we will turn to our witnesses for their opening 
comments. Deputy Commission, if you would like to start.


                summary statement of kevin k. mcaleenan


    Mr. McAleenan. Thank you, Mr. Chairman.
    Chairman Hoeven, Ranking Member Shaheen, and members of the 
subcommittee that are coming back, thank you for the 
opportunity to appear before you today. It is an honor to 
represent U.S. Customs and Border Protection.
    As America's unified border security agency, CBP protects 
the United States against terrorist threats and the illegal 
entry of inadmissible persons and contraband, while 
facilitating lawful trade and travel. I am extremely proud of 
CBP's dedicated frontline personnel, who over the past year 
have advanced CBP's situational awareness of the border 
environment, improved our ability to interdict threats, and who 
continue to fulfill this agency's critical mission, including 
responding to humanitarian challenges, with integrity and 
commitment.
    The fiscal year 2017 budget request of $13.9 billion 
enables CBP to continue our efforts to support our frontline 
personnel, implement new technologies, and expand our public-
private partnerships. Key components of our efforts to optimize 
resources, facilitate the flow of low-risk lawful trade and 
travel, and free our officers and agents to focus on high-risk 
cargo in illicit border crossers.
    Thanks to the critical resources provided by this 
committee, today, CBP continues to achieve greater situational 
awareness, greater mobility, and greater effectiveness in 
detecting and interdicting threats crossing and approaching our 
northern, southern, and coastal borders and ports of entry.
    Countering the threat of foreign terrorist fighters 
traveling to the United States is our highest priority and the 
focus of multiple recent security enhancements in our programs 
and targeting efforts. With support from this committee, CBP is 
expanding counter network operations at the National Targeting 
Center. This capability advances our understanding of the 
increasingly sophisticated and diffuse networks that comprise 
terrorist groups and transnational criminal organizations 
directly supporting our border security mission and enhancing 
information-sharing with interagency and international 
partners.
    We will focus this powerful approach on the greatest 
threats to our border from terrorist travel and financing to 
organizations harming our communities by trafficking heroin and 
other narcotics to human smugglers preying upon children and 
families desperate to reach a safer place to trade violators 
that would seek to undermine the American economy.
    We are also expanding preclearance operations with a goal 
to pre-clear 33 percent of U.S.-bound air travel by 2024. 
Preclearance places our most valuable counterterrorism assets, 
our trained law enforcement personnel, in a position to address 
threats before they board aircraft destined for the United 
States while increasing capacity and facilitating travel to the 
United States.
    I would like to thank this subcommittee for the recent 
statutory changes that significantly improve the reimbursement 
mechanism to fund CBP's preclearance operations and allows CBP 
to expand preclearance without diverting appropriated 
resources.
    We will continue our efforts to develop meaningful 
performance measures to demonstrate the significant 
improvements we have made in border security. We recognize this 
committee's focus on achieving agreed metrics that inform an 
outcome-based approach and believe that these metrics will 
enable more analytically sound decisionmaking within CBP.
    CBP is also making multiple institutional changes to 
increase CBP's operational agility, effectiveness, and 
accountability. Last fall, the Commissioner announced that CBP 
would be realigning the agency's headquarter structure to 
better support our frontline personnel in fulfilling CBP's 
critical mission. We look forward to working with this 
subcommittee on these changes, which will emphasize effective 
and efficient decision-making, improved resource management, 
and right sizing the span of control for our senior leaders.
    The realignment is pragmatic and is focused on our 
organizational ability to support the front line, to identify 
requirements and acquire solutions to hire and retain personnel 
and to streamline process flows and create efficiencies for the 
agency. Improvements in these areas will not only benefit CBP 
and the Department but will also provide the transparency and 
accountability that we have pledged to our employees, 
stakeholders, Congress, and the American people.
    Thank you again for the opportunity to testify today and 
for your steadfast support of U.S. Customs and Border 
Protection. I am happy to answer your questions.
    [The statement follows:]
                Prepared Statement of Kevin K. McAleenan
                              introduction
    Chairman Hoeven, Ranking Member Shaheen, members of the 
subcommittee, it is an honor to appear before you today. As America's 
unified border agency, U.S. Customs and Border Protection (CBP) 
protects the United States against terrorist threats and prevents the 
illegal entry of inadmissible persons and contraband, while 
facilitating lawful travel and trade. CBP works tirelessly to deter 
illicit trafficking in people, drugs, illegal weapons, and money, while 
promoting the flow of cross-border commerce and tourism. CBP achieves 
its complex mission using a combination of talented and dedicated 
personnel, intelligence-driven and risk-based strategies, advanced 
technology, and collaborative partnerships.
    The border environment in which CBP works is dynamic and requires 
continual adaptation to respond to emerging threats and rapidly 
changing conditions. I am proud of CBP's dedicated men and women, who 
have advanced CBP's situational awareness of the border environment, 
and who continue to meet these challenges with integrity and 
commitment.
    Last year the Commissioner announced the CBP Vision and Strategy 
2020, CBP's first comprehensive strategic plan for our agency in nearly 
a decade. The plan acknowledges the complexity of the CBP mission in an 
increasingly global border environment and provides a roadmap for the 
way forward by focusing efforts on collaboration, innovation, and 
integration in meeting our mission goals to:
  --combat terrorism and transnational crime;
  --advance comprehensive border security and border management;
  --enhance U.S. economic competitiveness by enabling trade and travel; 
        and
  --promote organizational integration, innovation, and agility.
    The last mission goal listed above--promote organizational 
integration, innovation, and agility--applies throughout the broad 
scope of CBP's mission, programs, and operations. To this end, we have 
made multiple changes and much progress in the last year as we 
restructure our fiscal, operational, and institutional management to 
better align our resources with our missions.
    We have been a key participant in Secretary Johnson's Unity of 
Effort initiative, which aims to change the way the Department of 
Homeland Security (DHS) makes decisions within the Department and 
conducts operations. As part of this initiative, CBP is the sponsoring 
component for DHS Joint Task Force (JTF)-West and a participating 
component in JTF-East and JTF-Investigations. The JTFs, launched by DHS 
in early 2015, are strategically guided by the Southern Border and 
Approaches Campaign Plan, which enhances the Department's operational 
approach to addressing comprehensive threat environments in a unified, 
integrated way. CBP has also been an active participant in the Joint 
Requirements Council. The Council consists of senior leaders from DHS 
components, and is organized in order to identify and recommend 
investments to maximize efficiency and enhance mission capabilities.
    To promote organizational efficiencies within CBP, last fall the 
Commissioner announced that CBP would be realigning the agency's 
headquarters structure to better support our personnel in fulfilling 
CBP's critical mission. We look forward to working with this 
subcommittee on these changes, which will emphasize delegation of 
authority, more defined and accountable decisionmaking, and improved 
span of control for management. While CBP's operational offices--Office 
of Field Operations (OFO), U.S. Border Patrol (USBP), Air and Marine 
Operations (AMO), and the Office of International Trade (OT)--will 
remain as they are today, the new structure will identify and address 
our most critical infrastructure and support issues and challenges. We 
will measure the success of this effort by our ability to support the 
front lines--our ability to identify requirements and acquire 
solutions, to hire personnel, and to manage resources effectively. 
CBP's realignment will allow us to streamline process flows and create 
efficiencies for the agency.
    The dedicated men and women of CBP are truly our greatest resource 
and I am pleased to share with you some of our progress in addressing 
frontline recruitment and hiring challenges. We've recently established 
a National Frontline and Hiring Program Management Office to implement 
specific actions that address frontline challenges. This includes a 
National Frontline Recruitment Command (NFRC), comprised of uniformed 
agents and officers as well as Human Resources Management (HRM) 
personnel to provide support and expertise to OFO, USBP, and AMO field 
recruitment offices. We have started traditional and military hiring 
hub pilots to expedite groups of applicants through the hiring process 
by compressing multiple process steps in one location over the course 
of 2 days. The hiring hub pilots are demonstrating a time reduction of 
over 60 percent by consolidating the interview, polygraph, and 
provisional clearance adjudication steps. We have also enhanced our 
engagement with the Department of Defense (DOD) to increase our efforts 
to hire transitioning service members and veterans. Recruitment and 
hiring process improvements, such as opening multiple job opportunity 
announcements for vacancies, have proven to be effective in increasing 
the number of applications received for CBP frontline positions. In 
fiscal year 2015, CBP's recruitment efforts resulted in over 100,000 
new applicants for frontline positions. We also made several 
improvements to our processes that have reduced our time-to-hire. For 
example, in fiscal year 2015, we added additional nurses and 
streamlined the medical forms to reduce the pre-employment medical 
processing time by an average of 43 days. These initiatives focus on 
making the hiring process more efficient and effective by streamlining 
the process and ensuring CBP attracts the talented and diverse 
workforce required to accomplish our mission now and in the future.
    We also recognize the importance of retaining our law enforcement 
personnel. Over the last year, we have made significant progress in 
compensation reform with Congress' passage of the Border Patrol Agent 
Pay Reform Act of 2014 (Public Law 113-227), which provides stability 
to agent pay. The new Border Patrol overtime system was implemented in 
January 2016, as required by the law. Additionally, we are pursuing 
legislative changes to Law Enforcement Availability Pay (LEAP) for our 
Air and Marine interdiction agents to ensure equitable compensation for 
all of AMO law enforcement personnel.
    In moving forward with these important initiatives, as with all of 
CBP's daily activities, the American people place enormous trust and 
confidence in CBP to keep them safe. To ensure this trust, the 
Commissioner and I are committed to the highest levels of transparency 
and accountability in all our programs, activities, and operations.
    Today, I will discuss how CBP is using the resources provided by 
Congress efficiently and effectively, and demonstrate how the 
President's fiscal year 2017 budget request supports CBP's continued 
commitment to keeping terrorists and their weapons out of the United 
States, securing the border, and facilitating lawful international 
trade and travel. The fiscal year 2017 budget request commits resources 
to maintain the right balance of people, technology, and infrastructure 
in each of our mission areas.
                       securing america's borders
    Along the over 5,000 miles of border with Canada, 1,900 miles of 
border with Mexico, and approximately 95,000 miles of shoreline, CBP is 
responsible for preventing the illegal movement of people and 
contraband at and in between the Ports of Entry (POEs). CBP's Border 
Patrol and Air and Marine agents patrol our Nation's borders and 
associated airspace and maritime approaches to prevent illegal entry of 
people and goods into the United States. CBP officers (CBPOs) and 
agriculture specialists are multi-disciplined and perform the full 
range of inspection, intelligence analysis, examination, and law 
enforcement activities relating to the arrival and departure of 
persons, conveyances, and merchandise at air, land, and sea POEs.
    Thanks to this subcommittee's support, the Nation's long-term 
investment in border security has produced significant and positive 
results in fiscal year 2015. Border Patrol apprehensions--which are an 
indicator of total attempts to cross the border illegally--totaled 
337,117 nationwide in fiscal year 2015, compared to 486,651 in fiscal 
year 2014. This represents a 30-percent decline in the last year and 
almost 80 percent below its most recent peak in fiscal year 2000. 
However, this is not the only way we are quantifying an overall decline 
in illegal entries. CBP is supporting a DHS-wide effort to develop 
outcome-based border security metrics, which will help us improve 
management of operations and investment decisions. CBP officers and 
agents also played a critical counter-narcotics role, resulting in the 
seizure or disruption of more than 3.3 million pounds of narcotics in 
fiscal year 2015. In addition, the agency seized more than $129 million 
in unreported currency through targeted enforcement operations.
    CBP secures our borders through the coordinated use of integrated 
assets to detect, interdict, and prevent acts of terrorism and the 
unlawful movement of people, illegal drugs, and contraband toward or 
across the borders of the United States. CBP continues to implement 
intelligence-driven strategies focused on areas of greatest risk. CBP 
deploys its capabilities to align with threats along the border and 
adapt to threats as they change.
Response to Unaccompanied Children
    During fiscal year 2014, the U.S. Government experienced an 
unprecedented increase in the number of unaccompanied children (UC) 
crossing the Southwest border, compared to previous years. The surge 
created a resource challenge for CBP and other Federal partners 
responsible for responding to the urgent humanitarian situation. For 
fiscal year 2016, through January 31, 2016, USBP has apprehended over 
20,000 UC crossing the Southwest border, compared to approximately 
10,000 UC apprehensions during the same time period in fiscal year 
2015.
    Although the numbers have recently declined, UC flows are 
fluctuating and CBP anticipates seasonal increases throughout fiscal 
year 2016 and into fiscal year 2017. For fiscal year 2017, CBP requests 
resources to support a revised baseline of 75,000 UC apprehensions as 
well as a contingency fund should arrivals exceed prior year levels. 
This program increase will allow CBP personnel to continue focusing on 
border strategies and provide for the health and safety of higher 
volumes of UC crossing the Southwest border. Working closely with our 
DHS and Department of Health and Human Services (HHS) partners, CBP 
continues to ensure the safe detection, care, and transfer of this 
unique and vulnerable population in accordance with the William 
Wilberforce Trafficking Victims Protection Reauthorization Act (Public 
Law 110-457) and other legal obligations.
Investments in Mobile Tactical Equipment
    CBP's border security mission regularly requires agents and 
officers to operate in diverse and remote locations where tactical 
communication, transportation, and surveillance capabilities are 
essential to coordinating mission activities and protecting the safety 
of CBP law enforcement agents and officers. For agents and officers 
operating in remote areas, their radio is often their only means of 
communication to coordinate activities or request assistance. For the 
USBP, radios are the single most essential piece of equipment for 
frontline agents--an agent may not deploy to the field without a 
functioning radio.
    CBP operates and maintains a tactical radio inventory of over 
70,000 personal and vehicle units. However, because some of CBP's 
radios were purchased as far back as 1992, the manufacturers no longer 
make parts and many do not have adequate security voice encryption. 
CBP's budget request seeks $54.6 million for the acquisition of modern 
and secure radio and satellite communication technology that would 
provide communication reliability and security for CBP frontline law 
enforcement and flexibility for agents and officers to communicate with 
State and local law enforcement agencies as well as Mexican 
authorities.
    Vehicles are another essential tool for frontline agent operations 
and safety. By 2017, over half of the USBP vehicle fleet will be at 
least 5 years old.\1\ Recapitalizing the fleet will not only help 
agents operate in remote and rugged locations by improving reliability 
and safety, but it will save on maintenance and fuel costs. CBP 
requests a total of $60.3 million to maintain and operate the Border 
Patrol fleet, which would replace 1,599 vehicles, or approximately 10 
percent of the USBP vehicle fleet.
---------------------------------------------------------------------------
    \1\ The General Services Administration recommended vehicle 
replacement standard is 5 years.
---------------------------------------------------------------------------
    CBP's frontline personnel are, and will continue to be, our 
greatest resource in our mission to secure our Nation's borders. The 
budget requests authority to achieve an onboard Border Patrol agent 
target of 21,070 agents in fiscal year 2017. This target reflects 
realistic agent hiring expectations for fiscal year 2017 and will allow 
CBP to invest in critical mission readiness tactical equipment for 
existing frontline agents and officers. These investments, to include 
recapitalizing aging radios and vehicles, will enable agents to respond 
to and resolve incidents and incursions more efficiently, effectively 
and safely.
Technology Investments Between Ports of Entry
    The fiscal year 2017 budget request will also enable the continued 
deployment of proven, effective technology to strengthen border 
security operations between the ports--in the land, air, and maritime 
environments. With the deployment of fixed and mobile surveillance 
capabilities, CBP can gain situational awareness remotely, direct a 
response team to the best interdiction location, and warn them of any 
additional danger otherwise unknown along the way. Technology 
investments are critical to CBP's risk-based operational strategy. 
Thanks to this subcommittee's support of CBP's technology investments, 
CBP gains greater situational awareness, can determine activity levels 
along the borders, monitor evolving threat patterns, and strategically 
deploy assets.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the Department of Defense (DOD) Re-use program, uses 
a mix of aerostats, towers, cameras, and radars to provide USBP with 
advanced surveillance capability over a wide area. This capability has 
proven to be a vital asset in increasing CBP's ability to detect, 
identify, classify, and track illegal activity. As of December 2015, 
USBP agents, with the assistance of existing aerostats and re-locatable 
towers, seized 122 tons of narcotics, and caught over 50,000 illegal 
border crossers detected in aerostat locations. CBP's budget request 
includes a total of $33.5 million, which includes an increase of $25.7 
million above the Tactical Aerostats baseline of $7.8 million to fund 
continued operations and maintenance costs for this capability, which 
significantly enhances USBP situational awareness in the operational 
environment.
    Another proven border security technology, Integrated Fixed Towers 
(IFT) assists USBP agents in detecting, tracking, identifying, and 
classifying items of interest along our Nation's borders through a 
series of fixed surveillance towers and equipment that display 
information on workstations in command and control centers. Thanks to 
the support of this subcommittee, the Consolidated Appropriations Act 
of 2016 (Public Law 114-113) provided development and deployment 
funding to begin expanding IFT coverage beyond the Nogales Area of 
Responsibility to the Douglas and Sonoita Areas of Responsibility. 
CBP's fiscal year 2017 budget request includes a total of $52.1 million 
to support the replacement of Block 1 systems with IFT in the Tucson/
Casa Grande and Ajo Areas of Responsibility along the U.S. border with 
Arizona. Replacing Block 1 with IFT will increase USBP's situational 
awareness of cross-border activity, replace obsolete technology, 
decrease operations and maintenance costs, and mitigate the concurrent 
operation of numerous systems.
Investments in Air and Marine Capabilities
    CBP's comprehensive border security operations include the use of 
coordinated and integrated air and marine capabilities to detect, 
interdict, and prevent acts of terrorism and the unlawful movement of 
people, illegal drugs, and other contraband toward or across the 
borders of the United States. During fiscal year 2015, CBP's Air and 
Marine Operations contributed to 4,485 arrests and the apprehension of 
51,130 individuals, as well as the interdiction of 213,000 pounds of 
cocaine in the transit zone.
    CBP's layered approach to border security relies on a variety of 
resources, including fixed wing, rotary, and unmanned aircraft systems 
in the air domain, and patrol and interdiction vessels in the maritime 
environment. These assets provide critical aerial and maritime 
surveillance, interdiction, and operational assistance to our ground 
personnel and multi-domain awareness for the Department of Homeland 
Security.
    CBP's fiscal year 2017 budget request seeks $14.8 million to 
support the UH-60 Black Hawk helicopter procurement program that takes 
a more cost-efficient approach to recapitalization, using the Army's 
hospital variant of the UH-60L. Black Hawks are critical to border 
security operations, being the only helicopters that are capable of 
carrying eight agents with full gear and are rugged enough to support 
interdiction and life-saving operations in diverse and harsh 
environments--including those at high altitudes in the desert, over 
open water, and in extreme cold--and in dangerous situations.
    The King Air (KA)-350CER Multi-role Enforcement Aircraft (MEA) is 
another highly capable and adaptable air asset in CBP's fleet of 
tactical aircraft. CBP's fiscal year 2017 budget request includes $51.0 
million to procure two MEA. Unlike older single-mission assets, these 
aircraft provide increased flight endurance, marine search radar, an 
infrared camera system, and a satellite communications system 
contributing to apprehensions and seizures along the border from both 
the land and sea. Among other benefits, this aircraft allows CBP to 
respond to go-fast vessels that are attempting to reach the southern 
coast of California and deposit bulk cocaine for distribution inland.
    As we continue to deploy border surveillance technology and other 
operational assets, particularly along the Southwest border, the 
subcommittee's support of these investments allows CBP the flexibility 
to shift more officers and agents from detection duties to interdiction 
of illegal activities on our borders. The fiscal year 2017 budget 
supports CBP's border security mission by increasing and enhancing 
border security technology including mobile assets, air and marine 
capabilities, and initiatives to increase efficiency and effectiveness.
                securing and expediting trade and travel
    At our Nation's 328 land, air, and sea POEs, CBP prevents dangerous 
people and contraband from entering the United States, while 
facilitating the legal flow of international trade and travel by using 
a combination of personnel, technology, intelligence, risk information, 
targeting, and international cooperation. CBP extends the U.S. zone of 
security beyond our physical borders through bilateral cooperation with 
other nations, private-sector partnerships, expanded targeting, and 
advance scrutiny of information on people and goods seeking to enter 
this country.
    CBP also has the responsibility to enhance the Nation's economic 
competitiveness and security by efficiently and effectively processing 
goods and people across U.S. borders. This is crucial to promoting job 
growth and helping the private sector remain globally competitive today 
and in the future. With the support of this subcommittee and through 
the deployment of critical frontline resources, enhanced business 
processes, and advanced technologies, CBP is streamlining the 
processing of lawful trade and travel, and promoting the growth of the 
U.S. economy.
Securing Travel and Trade
    At POEs in fiscal year 2015, CBPOs arrested 8,246 individuals 
wanted for serious crimes and stopped 225,342 inadmissible aliens from 
entering the United States through POEs, an increase of 14 percent from 
fiscal year 2014. Grounds for inadmissibility include immigration 
violations, criminal violations, and national security concerns. Also, 
protecting the economy and America's food and agricultural production 
and industry, CBP's agriculture specialists seized 1.6 million 
prohibited plant materials, meat, and animal byproducts, and 
intercepted more than 171,000 dangerous pests such as the khapra 
beetle, one of the world's most destructive pests of grain products and 
seeds.
    CBP is continually refining our risk-based strategy and layered 
approach to security, extending our borders outward, and focusing our 
resources on the greatest risks to interdict threats before they reach 
the United States. In response to the potential threat posed by the 
Islamic State of Iraq and the Levant (ISIL), other terrorist groups, 
foreign fighters, and their supporters, DHS is continually evaluating 
and strengthening travel security operations and programs--such as the 
Visa Waiver Program (VWP)--to increase our ability to identify, and 
prevent the international travel of, those individuals or groups that 
wish to do us harm.
    On December 18, 2015, the President signed into law the 
Consolidated Appropriations Act of 2016 (Public Law 114-113), which 
includes the Visa Waiver Program Improvement and Terrorist Travel 
Prevention Act of 2015 (the Act). The Act codifies new VWP 
requirements, including provisions that require individuals who have 
traveled to certain countries to apply for a visa. CBP, in coordination 
with DHS, has taken several steps to implement the changes required by 
the December legislation. Individuals seeking to travel under the VWP 
must submit applications to the Electronic System for Travel 
Authorization (ESTA). On January 21, 2016, CBP began denying new 
Electronic System for Travel Authorization (ESTA) applications and 
revoking valid ESTAs for individuals who indicated holding dual 
nationality with Iran, Iraq, Sudan, or Syria. More than 17,000 ESTAs 
have been denied or revoked to date. Beginning January 13, 2016, CBP 
also initiated a protocol to identify ESTA holders with travel to one 
of the four countries,\2\ to conduct secondary screening, and revoke 
ESTAs for future travel if travel is confirmed and the government and 
military exceptions do not apply. Finally, CBP began notifying VWP 
travelers of the e-passport change \3\ in November 2015 and will 
enforce the mandatory use of e-passports for all VWP travel by the 
legislative deadline of April 2016.
---------------------------------------------------------------------------
    \2\ On February 18, 2016, DHS announced the addition of Libya, 
Somalia, and Yemen to the list of countries of concern, limiting VWP 
travel for certain individuals who have traveled to these countries 
since March 1, 2011. The three additional countries designated join 
Iran, Iraq, Sudan, and Syria as countries subject to restrictions for 
VWP travel for certain individuals.
    \3\ On August 6, 2015, DHS introduced a number of additional 
security enhancements to the VWP, including enhanced traveler vetting, 
information sharing, and other security requirements for VWP countries 
to further address any potential threat. The August 2015 enhancements 
also introduced a requirement for all VWP travelers to use electronic 
passports (e-passports) for travel to the United States. Currently, 
citizens of the 27 countries designated into the VWP before 2007 may 
use a machine-readable non-biometric passport if that passport was 
issued before October 26, 2006, and is still valid.
---------------------------------------------------------------------------
    Thanks to the work of this committee, CBP was appropriated start-up 
funding in fiscal year 2015 and fiscal year 2016 for the Electronic 
Visa Update System (EVUS)--a pilot intended to collect biographic 
information from designated nonimmigrant visa holders, before he or she 
initiates travel to the United States, during the life of the visa 
validity. The system will reassess the traveler's information and 
continue to determine if they remain admissible to the United States. 
EVUS will operate similarly to the ESTA system and will assist CBP in 
determining whether such travel poses a law enforcement or security 
risk by validation through selected law enforcement databases. We will 
be working with Congress throughout the year to secure the authority to 
spend the fees we collect from this system. The fees collected will be 
used to further the support of the system development, network and 
network security, fee collection and processing, the EVUS Information 
Call Center, and EVUS staffing. The fee associated with the program is 
intended to maintain the program in future years.
    CBP's travel and trade security operations use a risk-based 
approach, applying rigorous information analysis and targeting to 
identify the greatest threats and risks. CBP's fiscal year 2017 budget 
request includes an increase of $4.5 million to expand staffing at 
CBP's National Targeting Center (NTC). The NTC operates 24 hours a day 
with the mission of collaborating with Federal, State, local, and 
international partners to effectively identify, target, screen, and 
interdict inbound and outbound passengers and cargo across all 
international modes of transportation that pose a threat to national 
security, public safety, agriculture, lawful trade, and safe travel. 
Effective targeting and interdiction prevents inadmissible high-risk 
passengers, cargo, and agriculture/bioterrorism threats from actually 
reaching U.S. POEs, thereby extending our border security initiatives 
outward and making our borders the last line of defense rather than the 
first line of defense.
    Thanks to the support of this subcommittee, the Consolidated 
Appropriations Act of 2016 (Public Law 114-113) provided necessary 
funds for CBP to initiate counter network operations within the NTC. 
The newly established Counter Network Division's (CND) mission is to 
support CBP, DHS, and the interagency law enforcement and intelligence 
communities in developing an interoperable counter network process that 
provides a comprehensive understanding of emerging threats. This 
analysis will enhance our understanding of illicit networks (terrorism, 
human smuggling, narcotics, and illicit trade/finance) and illuminate 
opportunities for CBP or partners to disrupt their operating 
environments and ultimately dismantle them.
    Focusing on securing the global supply chain and leveraging NTC and 
CND capabilities, CBP's budget request includes $1.0 million to expand 
trade targeting through the Trade Intelligence and Counter Networks 
Initiative. This initiative would enhance CBP's strategic trade 
targeting capabilities to quickly detect, deter, and disrupt high-risk 
financial and illicit trade networks and combat criminal organizations 
that illegally exploit American trade. This initiative is critical to 
ensuring a level playing field for American industry and hard-working 
Americans everywhere.
    On May 29, 2015, DHS Security Secretary Johnson announced DHS's 
intent to enter into negotiations to expand air preclearance operations 
to 10 new foreign airports, located in nine separate countries. These 
countries represent some of the busiest last points of departure to the 
United States--in 2014, nearly 20 million passengers traveled from 
these 10 airports to the United States. Preclearance allows for the 
complete inspection process and security screening to occur on foreign 
soil prior to boarding a direct flight to the United States thereby 
obviating the need for further CBP processing or TSA security screening 
upon arrival. This enhances border and aviation security, reduces wait 
times, increases capacity for airlines, and allows the United States 
and our international partners to jointly identify and address threats 
at the earliest possible point. More than 16 million individuals 
traveled through one of CBP's preclearance locations in Canada, 
Ireland, the Caribbean, or the United Arab Emirates in fiscal year 
2015, and our goal is to process 33 percent of U.S.-bound air travelers 
through preclearance by 2024.
    All new preclearance locations will be funded through a combination 
of user fees and reimbursements from foreign airport operators, to the 
extent allowed by law. Thanks to the support of this subcommittee as 
well as the Senate Finance and House Ways and Means Committees, recent 
statutory changes significantly improved the reimbursement mechanism 
CBP may use to fund preclearance operations. H.R. 644, the Trade 
Enforcement and Trade Facilitation Act of 2015, \4\ signed by the 
President just last week, gives CBP authority to accept advance 
payments, charge airport operators for initial costs, and authorizes 
up-front funding for preclearance operations. The Consolidated 
Appropriations Act of 2016 (Public Law 114-113) provided this up-front 
appropriation that CBP may use to cover the costs of preclearance 
operations until reimbursements are collected. These changes will allow 
CBP to expand preclearance as planned without diverting appropriated 
funds from other activities. CBP expects the first preclearance 
expansion location to begin operations in fiscal year 2017.
---------------------------------------------------------------------------
    \4\ As of February 26, 2016, the Trade Enforcement and Trade 
Facilitation Act of 2015 has not been assigned a Public Law number.
---------------------------------------------------------------------------
    The fiscal year 2017 President's budget proposes the transfer of 
the Office of Biometric Identity Management (OBIM) from the National 
Protection and Programs Directorate (NPPD) to CBP. This transfer will 
add responsibility for providing enterprise-level biometric identity 
services to DHS and its mission partners in order to advance informed 
decisionmaking by producing accurate, timely, and high assurance 
biometric data and analysis. In fiscal year 2015, OBIM processed over 
95 million total transactions from domestic OBIM partners. These 
transactions identified approximately 3 million watchlist matches and 
identified nearly 184,000 known or suspected terrorist matches. Today, 
DHS manages an entry/exit system in the air and sea environments using 
biometric and biographic components that identify overstays. With the 
recent support of Congress in the Consolidated Appropriations Act of 
2016 (Public Law 114-113), DHS is continuing to move forward in further 
developing a biometric exit system that can be integrated in the 
current architecture.
    As part of our commitment to deploying innovative technologies to 
enhance homeland security while facilitating international travel, CBP 
has recently started expanding biometric technology pilots at air and 
land POEs. On January 19, 2016, CBP began using facial comparison 
technology at John F. Kennedy International Airport \5\ to help verify 
a traveler entering the United States matches the passport presented. 
CBP has also started testing biometric technology for travelers 
departing the United States at the Otay Mesa \6\ pedestrian crossing. 
Improved technology for comparing entries and exits will enhance CBP's 
ability to secure the border, identify visa overstays, identify persons 
of interest, and improve reporting and analysis of international 
visitors to the United States. While implementation of a robust and 
efficient biometric solution will take time, DHS is aggressively 
evaluating emerging biometric technologies and working closely with our 
domestic and international stakeholders to find solutions that protect 
the integrity of our visa system, minimize disruptions to travel, prove 
to be cost-effective, and provide sufficient flexibility to address 
both current and future requirements.
---------------------------------------------------------------------------
    \5\ Expansion of Biometric Technology: Facial Comparison at JFK: 
http://www.cbp.gov/newsroom/national-media-release/2016-01-19-000000/
cbp-use-facial-comparison-technology-john-f
    \6\ CBP to begin biometric exit testing at Otay Mesa POE http://
www.cbp.gov/newsroom/local-media-release/2016-02-11-000000/cbp-begin-
biometric-exit-testing-otay-mesa-port-entry
---------------------------------------------------------------------------
Expediting Travel and Trade
    CBP supports the President's National Travel and Tourism Strategy 
to expand the Nation's ability to attract and welcome international 
visitors while maintaining the highest standards of security. CBP 
officers welcomed more than 382 million travelers at air, land, and sea 
ports of entry in fiscal year 2015. More than 112 million international 
travelers arrived at U.S. airports, an increase of 5.1 percent from the 
previous fiscal year.
    With the strong support of this subcommittee, CBP continues to 
expand trusted traveler programs, such as Global Entry, and continues 
to provide international travel security and facilitation benefits. 
Global Entry allows for expedited clearance of pre-approved, low-risk 
travelers. Currently available at 46 U.S. airports and 13 preclearance 
locations, Global Entry streamlines the screening process at airports 
for trusted travelers. The program has more than 2.5 million members 
enrolled now, and CBP receives approximately 70,000 new applications 
for Global Entry each month. This past December, CBP expanded Global 
Entry to citizens of the United Kingdom.\7\
---------------------------------------------------------------------------
    \7\ Expansion of Global Entry to UK Citizens http://www.cbp.gov/
newsroom/national-media-release/2015-11-03-000000/cbp-announces-
expansion-global-entry-uk-citizens
---------------------------------------------------------------------------
    Also with the strong support of this subcommittee, CBP is 
completing the development of core ACE capabilities. CBP's budget 
request includes $83.9 million to sustain the operations and 
maintenance efforts associated with the ACE acquisition program. In 
fiscal year 2017 ACE will be operating at full operational capacity, 
thereby requiring less overall sustainment costs for the program. When 
fully operational, ACE will result in the private sector using just one 
portal for transmitting electronic information about imports and 
exports for 47 government agencies, eliminating over 200 different 
forms and streamlining trade processes.
    Cross-border trade also increased in fiscal year 2015, with CBP 
processing more than $2.4 trillion in trade and collecting more than 
$46 billion in revenue. In fiscal year 2015, CBP processed more than 
$1.5 trillion worth of U.S. exported goods and 26.3 million cargo 
containers. In fiscal year 2015, CBP conducted more than 28,839 
seizures of goods that violated intellectual property rights, with a 
total retail value of more than $1 billion--thereby protecting American 
innovation.
    CBP recognizes how critical our trade enforcement and facilitation 
role is in protecting our Nation's economic security. We are working to 
ensure a fair and competitive trade environment where the benefits of 
trade compliance exceed the costly consequences of violating U.S. trade 
law. In fiscal year 2015, we supported domestic producers of products 
ranging from steel plates to solar panels to crawfish by collecting 
$1.7 billion in cash deposits to secure anti-dumping duties. We 
continually seek to develop and implement ways to improve our business 
processes and strengthen our engagement with our international and 
private-sector partners. To this end, the request for $1.25 million to 
fund CBP's Sharpening Trade Expertise initiative will ensure that the 
CBP workforce is equipped with the necessary skills and knowledge to 
proactively enforce our trade laws and facilitate lawful trade in a 
rapidly evolving global trade environment.
    On January 12, 2016, Mexican Secretary of Finance and Public Credit 
Luis Videgaray and the Commissioner met in Mesa de Otay, Tijuana, 
Mexico, to inaugurate the U.S.-Mexico Cargo Pre-Inspection Program 
pilot.\8\ Under the Program, certain cargo is to be pre-inspected in 
Mexico prior to crossing the border into the United States in an effort 
to improve the flow of trade as well as reduce border wait times and 
transaction costs. These pre-inspection pilots are a tangible example 
of the shared commitment between the United States and Mexico to 
promote economic growth and prosperity between the two countries 
connected by more than just a shared border. In 2016, we anticipate the 
inauguration of a third pre-inspection pilot in San Jeronimo, Mexico.
---------------------------------------------------------------------------
    \8\ Pre-Inspection Program Pilot at Mesa de Otay http://
www.cbp.gov/newsroom/national-media-release/2016-01-12-000000/cbp-
commissioner-inaugurates-cargo-pre-inspection
---------------------------------------------------------------------------
    Also, thanks to the support of the subcommittee, this past 
December, CBP announced a milestone toward fulfilling the agency's 
initiative to enhance industry-specific collaboration with the 
expansion of the Apparel, Footwear, and Textiles (AFT) Center of 
Excellence and Expertise.\9\ The Centers reflect the true spirit of 
collaboration between CBP and our trade stakeholders, reducing 
transactional costs, increasing consistency and predictability, and 
enhancing our ability to identify high-risk commercial importations. 
The expanded AFT is now CBP's hub for more than 67,000 importers of 
clothing, shoes, and raw materials.
---------------------------------------------------------------------------
    \9\ Expansion of Apparel, Footwear, and Textiles Center: http://
www.cbp.gov/newsroom/national-media-release/2015-12-16-000000/us-
customs-and-border-protection-announces
---------------------------------------------------------------------------
    Availability of frontline law enforcement at our Nation's POEs is 
also critical to achieving both our trade security and facilitation 
responsibilities. CBP proposes backfilling a limited amount of CBPO 
attrition with CBP Technicians, which will allow existing CBPO 
personnel to focus their time on law enforcement responsibilities 
rather than administrative functions. This proposal will help to ensure 
that the right personnel are focused on the right jobs, increase 
efficiency of POE operations, and will also generate efficiencies in 
the amount of $2.5 million.
                         integrated operations
    CBP's commitment to risk-based, intelligence-driven operations 
enables us to focus resources on a wide array of diverse threats 
ranging from networks of terrorism and transnational crime to 
individuals attempting illegal entry; from the illicit movement of 
weapons to the introduction of agricultural pests and diseases; from 
trafficking in drugs, weapons, and human trafficking to the transit of 
prohibited, restricted, and unsafe goods. CBP's application of risk 
management principles has enabled sound, timely operational planning 
and focused tactical execution against these diverse threats. CBP will 
continue to evolve our integrated risk management approach to remain 
agile and adaptable in supporting operational priorities.
    As part of CBP's evolving intelligence-driven strategy, in June, 
the Commissioner announced the movement of the Counterintelligence 
Program from the Office of Internal Affairs to the Office of 
Intelligence (OI). The transfer of the management and operations of 
this program will further align CBP's intelligence capabilities with 
those of the Department of Homeland Security and the U.S. Intelligence 
Community. By bringing together similar intelligence functions under 
one office, the Commissioner and I are confident that this change will 
amplify CBP's effectiveness in executing our intelligence mission.
    CBP must anticipate and proactively react to strategic risks that 
impact mission accomplishment. The budget requests an increase of $1.7 
million to fund 22 positions and expand critical OI capabilities. The 
additional positions will augment the existing staff to support OI's 
ability to provide products on current threats, initiatives, and 
intelligence. Additionally, this support would enable CBP to develop 
agency-wide depth of knowledge aligned with IC functions, including 
Counter-Intelligence, Confidential Human Source, Security, and 
Training. The CBP budget request also includes $1.0 million, to enable 
OI to further the implementation of the Intelligence and Targeting 
Center of Excellence and Expertise (ITCEE). The ITCEE provides 
integrated and transformative intelligence and targeting training for 
CBP personnel. The funding will support the establishment of a self-
sustaining and cost effective curriculum design and instruction team 
that will be able to meet the intelligence training requirements of the 
CBP workforce from all operational component offices in an effective 
and timely manner.
    The budget also requests funds to further evolve the CBP National 
Common Intelligence Picture (NCIP), an advanced intelligence collection 
and management system. The enhancements would link CBP assets and 
display the output in a live environment enabling CBP to see data on 
Transnational Criminal Organization movements on the borders in real 
time. NCIP allows CBP operators and analysts the ability to view all 
National and CBP collection assets in a seamless environment. Funding 
this request will reduce the processing time of intelligence gathered 
from sensors and transmit completed intelligence products back to 
frontline operations personnel within the hour.
    CBP's Air and Marine Operations Center (AMOC) is a critical 
component of CBP's intelligence and law enforcement operations. Thanks 
to this subcommittee's support in the Department of Homeland Security 
Appropriations Act, 2015 (Public Law 114-4), the fiscal year 2017 
budget requests $9.7 million for the annualization of the 55 provided 
positions to expand AMOC's capabilities in anticipating and identifying 
the criminal use of non-commercial air and marine conveyances, and 
mitigating these threats by coordinating a law enforcement response. 
CBP's AMOC is an international, multi-domain, Federal law enforcement 
center that strengthens the execution of CBP's global mission, supports 
investigations, and provides evidence to support prosecutions.
Use of Force
    CBP's most valuable attributes in protecting the American people 
are the integrity and professionalism of its workforce. The agency will 
not be fully successful in carrying out its complex mission 
requirements unless it continues to earn and maintain the trust of the 
public it serves. CBP's renewed focus on integrity, accountability and 
professionalism is only as good as its commitment to exemplifying and 
standing by those principles.
    Additionally, the pursuit of transparency and maintaining a higher 
standard of performance, in particular in instances where the use of 
force by our agents and officers is necessary, will further strengthen 
the public's trust in CBP. CBP continued to update its response to 
investigation of Use of Force incidents in fiscal year 2015 by 
revamping training, standing up a new review process, and expediting 
the disclosure of basic incident information to the public. Use of 
Force data, which reflect the application of use of force by Border 
Patrol agents, CBP officers, and Air Interdiction agents, showed a 26-
percent reduction in the number of use of force incidents from the 
prior fiscal year. CBP publicly released these data on October 2015, 
and plans to update this information periodically.
    CBP's Use of Force Center of Excellence has responsibility for the 
entire spectrum of CBP use of force programs, to include policy, 
training, equipment, maintenance and accountability. The budget 
requests an increase of $4.2 million to provide additional Use of Force 
oversight and training. Elements of this request include scenario-based 
simulator training; enhancements to the CBP Assaults-Use of Force 
Tracking System (AUFRS) to increase reporting and analysis. Investments 
in this activity will enable CBP to better train our law enforcement 
personnel and increase the transparency and accountability of CBP as it 
relates to use of force incidents and equipment.
    Our law enforcement personnel are trained to use the amount of 
force that is reasonable and necessary in a given situation. When 
agents and officers have access to less-lethal tools, they may in some 
instances be able to quickly control a situation in a reasonable manner 
that preserves human life. CBP is committed to equipping our law 
enforcement officers with the tools that allow for less-lethal options 
in an operational setting. The budget requests an increase of $12.0 
million to better equip our law enforcement personnel with properly 
maintained and functional weapons for field use. This request also 
funds less-lethal device re-certification for all CBP law enforcement 
personnel and establishes a national reserve of less-lethal devices to 
rapidly replace aging less-lethal devices.
                     management and administration
    Understanding the challenges and requirements of operating within a 
constantly changing environment, CBP must diligently pursue 
organizational efficiencies, optimized business processes, and mature 
functional capabilities to fully support operational needs and assure 
overall mission effectiveness. CBP's committed personnel and inherent 
culture are regarded as its most valuable resources and must be 
cultivated through progressive training to ensure a fully capable, 
integrated and collaborative agency.
Commitment to Transparency and Service to the Public
    In November, as part of CBP's continued emphasis on transparency 
and accountability, the Commissioner announced \10\ his decision to 
expand CBP's use of cameras in and around the border environment. The 
camera review includes the integration of new body-worn camera testing 
into law enforcement operations such as checkpoints, vessel boarding 
and interdictions, training academies, and outbound operations at POE, 
as well as mobile camera options in vehicles and on marine vessels. 
CBP's budget request includes an increase of $5.0 million to support 
requirements analysis and test and evaluation activities for the suite 
of camera options considered in the November 2015 CBP Body-Worn Camera 
Feasibility Study Report. This request will provide the first dedicated 
funding for body-worn cameras and other camera technology and will 
allow CBP to evaluate the feasibility of incorporating body-worn camera 
technology into CBP's law enforcement operations in each of its 
operational environments along the U.S. border--at and in between land 
POEs, in the air, and at sea.
---------------------------------------------------------------------------
    \10\ http://www.cbp.gov/newsroom/national-media-release/2015-11-12-
000000/cbp-announces-way-forward-use-body-worn-cameras
---------------------------------------------------------------------------
    Supporting another key aspect of my commitment to agency 
transparency, CBP is requesting an increase of $3.2 million to 
establish a Spanish Language Capability at the CBP Information Center 
(CIC). A bilingual element at the CIC is a much needed capability for 
the agency to receive complaints, compliments, tips, and inquiries from 
customers whose primary language is Spanish.
    And finally, in August 2014, DHS Secretary Johnson delegated to CBP 
the authority to investigate alleged criminal misconduct, as well as 
fatal or significant use of force incidents, involving CBP employees--a 
responsibility previously delegated to the Immigration and Customs 
Enforcement Office of Professional Responsibility (ICE OPR). CBP's 
fiscal year 2017 budget request supports an increase of $6.9 million to 
hire an additional 30 criminal investigators to increase CBP's ability 
to investigate and resolve these matters in a comprehensive and timely 
manner. Increased investigative staffing will also allow for greater 
participation in the 22 FBI-led Border Corruption Task Forces that 
provide valuable criminal intelligence information on Transnational 
Criminal Organizations.
                               conclusion
    The security of our Nation will continue to be tested by new and 
emerging threats and challenges. With the support of Congress, CBP 
continues to secure our Nation's borders, and promote international 
commerce and tourism, through a multi-layered approach using a variety 
of tools.
    CBP will continue to work with DHS and our Federal, State, local, 
tribal, territorial, and international partners, to strengthen border 
security and facilitate lawful cross-border trade and travel that is 
critical to our economy. We must remain vigilant and focus on refining 
our approach and positioning CBP's greatest capabilities to combat the 
greatest risks that exist today, to be prepared for emerging threats, 
and to overcome the challenges of securing a 21st century border.
    I want to thank the members of this subcommittee for your continued 
strong support of CBP. Thank you for the opportunity to appear before 
you today. I look forward to your questions.

    Senator Hoeven. Thank you, Deputy Commissioner.
    Deputy Director.

                  Immigration and Customs Enforcement

SUMMARY STATEMENT OF DANIEL RAGSDALE, DEPUTY DIRECTOR
    Mr. Ragsdale. Thank you, Chairman Hoeven, Ranking Member 
Shaheen, and distinguished members of the subcommittee. Thank 
you for the opportunity to appear before you today to present 
the President's fiscal year 2017 budget request for U.S. 
Immigration and Customs Enforcement.
    First, I want to recognize the talented and hardworking 
women and men of ICE both domestic and foreign. They are our 
greatest asset, and I am impressed and humbled by their work 
every day. I am proud to represent them and thank you for your 
continued support.
    I look forward to discussing our priorities for the 
upcoming fiscal year and highlighting our continued efforts as 
we make the most efficient and effective use of the resources 
you provide.
    Because of the funding you have provided in fiscal years 
2015 and 2016, the agency has again been able to hire frontline 
law enforcement personnel and key support staff. Because of the 
full-year appropriation in fiscal year 2016, we are better 
positioned today to focus our energy on meeting the new and 
ever-growing challenges to national security, border security, 
and public safety.
    The President's request includes $6.23 billion in total 
funding. This level of funding will sustain our law enforcement 
efforts in 2016 and enables ICE to continue its efforts in the 
following core areas: immigration enforcement; criminal 
investigations, including cyber crime; counterterrorism; and an 
investment in information technology needed to meet the needs 
of a 21st century law enforcement agency.
    To support DHS's border security mission, ICE continues to 
respond to the influx of families and unaccompanied children 
apprehended crossing our southwest border. We are attacking the 
transnational criminal organizations that prey on this 
vulnerable population from both the United States and abroad. 
In Mexico and Central America, ICE's Transnational Criminal 
Investigative Units (TCIUs) comprised of foreign police 
officers, customs and migration officers, and prosecutors are 
working to dismantle these organizations who mistakenly believe 
they are beyond our reach.
    Similarly, ICE officers stationed around the globe are 
building capacity with foreign partners to readily accept the 
return of their nationals.
    To support DHS's public safety mission, ICE has worked to 
reestablish cooperation with a number of State and local law 
enforcement jurisdictions who began limiting or declining 
cooperation with ICE. Through the Priority Enforcement Program 
(PEP), ICE has reengaged law enforcement agencies who decline 
to transfer removable convicted criminals or public safety 
threats to ICE. Since last summer, 16 of the top 25 
jurisdictions who received the largest number of detainers from 
ICE are now participating in PEP.
    Further, the President's 2017 budget request includes an 
additional $6.6 million for the Criminal Alien Program. This 
funding would be used to hire an additional 100 officers to 
support the expected increases in apprehensions from the 
expanded implementation of PEP.
    The President's request also seeks $2.12 billion for ICE to 
support its current investigative efforts, as well as maintain 
additional special agents and investigative support staff. In 
the last fiscal year, ICE investigations led to the disruption 
or dismantlement of over 239 criminal organizations, and we 
made more than 33,000 criminal arrests, including more than 
3,500 transnational gang members.
    We also seized more than 1 million pounds of narcotics, 
including over 7,500 pounds of heroin. We seized $513 million 
in currency and monetary instruments. Additionally, we 
identified and assisted more than 2,300 crime victims, 
including 384 trafficking victims and more than 1,000 victims 
of child exploitation.
    To support DHS's counterterrorism mission, ICE has expanded 
the Visa Security Program (VSP). This program maximizes the 
visa application process as an important counterterrorism tool 
to identify terrorists, criminals, and other aliens ineligible 
for a visa prior to their travel to the United States. In 2015, 
we opened six new VSP posts, the largest single-year expansion 
in the history of the program. This President's request 
includes $32.5 million to sustain those expansions made in 2015 
and maintain current operations.
    Just as important as the resources needed to fulfill ICE's 
enforcement and investigative missions are the tools required 
to carry out the agency's mission support programs. The 
President's request includes $43 million to fund the deployment 
and modernization of ICE's information technology applications 
and systems infrastructure that support our frontline personnel 
and improves information-sharing within DHS and with our 
partner organizations.
    ICE will continue to play a critical role in fulfilling our 
national security, border security, cyber, counterterrorism, 
and public safety missions. To that end, this request ensures 
that ICE has the resources to support those efforts.
    Thank you again for the opportunity to testify today, and I 
look forward to answering your questions.
    [The statement follows:]
                Prepared Statement of Daniel H. Ragsdale
                              introduction
    Chairman Hoeven, Ranking Member Shaheen, and distinguished members 
of the subcommittee: Thank you for the opportunity to appear before you 
today to present the President's fiscal year 2017 budget request for 
U.S. Immigration and Customs Enforcement (ICE). I look forward to 
discussing our priorities for the upcoming fiscal year and highlighting 
our continued efforts to ensure we make the most efficient and 
effective use of the resources you provide to carry out our critical 
mission.
    First, let me take this opportunity to thank you and your staff for 
your continued support of ICE as we execute our vital homeland security 
mission. Because of your combined efforts to ensure that DHS was funded 
throughout fiscal year 2016, we are better positioned today to focus 
our energy on meeting the new and ever growing challenges to national 
security and public safety.
    I am very proud to represent the dedicated men and women of ICE. 
ICE promotes homeland security and public safety through broad criminal 
and civil enforcement of approximately 400 Federal laws governing 
border control, customs, trade, and immigration. The agency carries out 
its mission through four principal components: Homeland Security 
Investigations (HSI), Enforcement and Removal Operations (ERO), the 
Office of the Principal Legal Advisor (OPLA), and Management and 
Administration (M&A). Additionally, the Office of Professional 
Responsibility (OPR) investigates allegations of administrative and 
criminal misconduct at ICE, and performs important inspection and 
oversight functions around the agency. Today, ICE has nearly 19,000 
employees in all 50 States, the District of Columbia, and strategically 
stationed positions in 46 foreign countries world-wide.
    The President's fiscal year 2017 budget request for ICE includes 
$5.908 billion in discretionary funding, and is in line with the fiscal 
year 2016 enacted budget. Additionally, the President's budget 
estimates $322 million in budget authority derived from mandatory fees, 
bringing total estimated spending authority to $6.230 billion. The 
President's fiscal year 2017 budget request will sustain our efforts in 
2016 and enable ICE to continue efforts in the following core areas: 
civil immigration enforcement, criminal investigations, sustaining our 
workforce, and investment in information technology needed to meet the 
security challenges of the 21st century.
                       enforcing immigration laws
    Our civil immigration enforcement efforts are led by the 5,900 law 
enforcement officers who make up ERO. These dedicated officers enforce 
our Nation's immigration laws by identifying aliens amenable to 
removal, apprehending, detaining, and removing those individuals from 
the United States, consistent with DHS priorities.
    The Department's civil immigration enforcement priorities impact 
how ICE conducts removals, and they underscore a heightened focus on 
the greatest threats to national security, public safety, and border 
security. ICE focuses its resources on those who pose a threat to 
national security, public safety and on recent unlawful entrants.
    Under the department-wide, three-tiered enforcement and removal 
guidance issued by the Secretary in November 2014, the top priority 
includes national security threats, convicted felons, gang members, and 
recent unlawful entrants apprehended at the border. The second-tier 
priority includes those convicted of significant or multiple 
misdemeanors and those who are not apprehended at the border, but who 
entered or reentered this country unlawfully after January 1, 2014. The 
third-tier priority consists of individuals who have failed to abide by 
a final order of removal issued on or after January 1, 2014.
    In fiscal year 2015, ICE ERO removed a total of 235,413 
undocumented immigrants, of which 98 percent fell into one of ICE's 
immigration enforcement priorities. Of these removals, 202,152 (86 
percent) were considered Priority 1 individuals (threats to national 
security, border security, and public safety). Convicted criminals 
continue to be a focus of this agency, and I believe our fiscal year 
2015 statistics demonstrate this commitment. Of the total removals in 
fiscal year 2015, 113,385 (48 percent) were convicted criminal aliens. 
More notably, 91 percent of ICE's fiscal year 2015 interior removals 
and returns were individuals who were previously convicted of a crime, 
compared to 85 percent in fiscal year 2014, and 67 percent in fiscal 
year 2011. These numbers clearly illustrate the agency's continued 
commitment to remove convicted criminals and others posing a threat to 
public safety in the interior of the United States, as well as 
individuals apprehended while attempting to unlawfully enter the United 
States.
    The Director and I remain firmly committed to enforcing our 
immigration laws effectively and sensibly. However, the nature and 
scope of ICE's civil immigration enforcement continues to be faced with 
a number of significant challenges. As this committee knows well, ICE 
continues to respond to the influx of families and unaccompanied 
children without legal status who are apprehended crossing the 
Southwest border into the United States. Through the whole of 
government, we continue to address this humanitarian and border 
security issue in a manner that is comprehensive, coordinated, and 
humane. While ICE is only one of several agencies involved in the 
processing of unaccompanied children and families, ICE plays a critical 
role by quickly and safely transporting unaccompanied children from 
U.S. Customs and Border Protection (CBP) custody to the U.S. Department 
of Health and Human Services (HHS) Office of Refugee Resettlement 
(ORR), transporting families to ICE custody at family residential 
centers, placing eligible adult family members on alternatives to 
detention and effectuating removal orders as appropriate following the 
conclusion of immigration proceedings. The President's fiscal year 2017 
budget request includes $45 million in base funding for the costs 
associated with the transportation of up to 75,000 unaccompanied 
children and up to $12.6 million in contingency funding to handle an 
additional influx.
    ICE's interior enforcement and removal operations also face 
difficulties as a result of a number of Federal court rulings, most 
notably Rodriguez v. Robbins, 715 F.3d 1127 (9th Cir. 2013). Rodriguez 
applies throughout the Ninth Circuit, the Federal court jurisdiction 
with the largest number of individuals in removal proceedings. The 
ruling allows individuals who previously would have been detained 
without bond, including criminal aliens, to seek release on bond from 
immigration judges after a period of time in detention. Recently, the 
U.S. Court of Appeals for the Second Circuit has followed the lead of 
the Ninth Circuit, issuing its decision in Lora v. Shanahan, 804 F.3d 
601 (2d Cir. Oct. 28, 2015), which provides bond hearings after a 
period of time for aliens detained under the mandatory detention 
provisions of the Immigration and Nationality Act. If a bond is granted 
and the aliens released from detention, their cases are then 
transferred from the relatively expedited detained court docket to the 
non-detained court docket. Because case processing in the non-detained 
docket generally takes longer than processing of cases on the detained 
docket, the number of overall removals in a given year has decreased. 
The President's fiscal year 2017 request supports the annualization of 
fiscal year 2016 efforts to hire additional immigration attorneys to 
more effectively respond and process cases on the non-detained docket.
    We also continue to disagree with the District Court decision in 
the Flores case, applying the 1997 settlement agreement from a case 
solely involving unaccompanied children to children who arrive with a 
parent and their subsequent processing at ICE family residential 
centers. The decision and resulting injunction limit the tools 
available to respond to flows of families without legal status 
apprehended after crossing into the United States. The U.S. Government 
has appealed the decision, and the appellate court has agreed to hear 
the appeal on an expedited basis. While the legal process plays out, we 
will continue to execute our mission in compliance with the District 
Court's orders. The President's fiscal year 2017 request includes $56.5 
million to fund 960 family beds. We have implemented significant 
reforms to how we operate our family residential centers in order to 
transition affected individuals to temporary processing facilities.
    The President's fiscal year 2017 request also includes $125.9 
million to support the expanded use of the Alternatives to Detention 
(ATD) program. ATD is a cost-effective alternative to traditional 
detention that makes detention bed space available for those aliens 
posing the greatest risk to public safety or national security. We 
estimate that this funding level will provide for a total of 53,000 
average daily ATD participants at full operating capacity in fiscal 
year 2017. We also anticipate that this funding will adequately 
accommodate those individuals who represent a low risk to public safety 
in families who arrive at our borders and are subsequently released 
from custody pending immigration court proceedings and are placed on 
the non-detained court docket.
    ICE will continue to detain those for whom detention is currently 
mandated , as well as the highest risk, non-mandatory detainees with 
the level of bed space included in the request. To achieve this 
critical mission goal, ICE will ensure the most cost-effective use of 
our appropriated funding by focusing costly detention capabilities on 
priority and mandatory detainees. In addition to funding for the 960 
family beds mentioned above, the President's fiscal year 2017 request 
also includes $1.4 billion to fund 29,953 adult beds and $309 million 
for the transportation and removal program to coordinate the safe and 
secure transportation of aliens who are in ICE custody or are being 
removed from the United States.
    As this Committee is aware, another significant factor impacting 
operations has been the number of State and local law enforcement 
jurisdictions limiting or declining cooperation with ICE. When law 
enforcement agencies decline to transfer custody to ICE some removable 
convicted criminals or public safety threats, the agency must expend 
additional resources to locate and arrest these individuals at-large.
    To address this problem, ICE implemented the Priority Enforcement 
Program (PEP) in July 2015 to replace the previous Secure Communities 
program. PEP improves the process of transferring those most dangerous 
individuals from State and local custody by enabling ICE to take 
custody of priority individuals without damaging trust with local 
communities. PEP is designed to be flexible, allowing ICE to tailor the 
program to fit the needs of each jurisdiction and achieve mutual law 
enforcement goals.
    Throughout 2015, DHS and ICE conducted a nation-wide effort to 
implement PEP and promote collaboration, reaching out to thousands of 
local law enforcement agencies and government officials. The agency's 
Field Office Directors have provided briefings about the program to 
over 2,000 law enforcement jurisdictions. Notably, 16 of the top 25 
jurisdictions with the largest number detainers that declined to 
participate in Secure Communities are now participating in PEP, 
representing nearly half of previously declined detainers.
    As ICE continues to strengthen and improve relationships with State 
and local law enforcement partners, we predict that more jurisdictions 
will participate in PEP, thereby increasing the number of convicted 
criminals transferred to ICE for removal and decreasing the risk to ICE 
officers who would otherwise need to locate these individuals. Building 
on these efforts, the President's fiscal year 2017 request includes an 
additional $6.6 million in fiscal year 2017 for the Criminal Alien 
Program (CAP). This funding will be used to hire 100 officers to 
support expected increases in apprehensions resulting from expanded 
implementation of PEP. The request will enable ICE to work with State 
and local law enforcement to take custody of individuals who pose a 
danger to public safety before those individuals are released into U.S. 
communities.
             combating transnational criminal organizations
    HSI is the investigative arm of ICE and conducts criminal 
investigations to protect the United States against terrorism and other 
cross border criminal activity that threaten public safety and national 
security, and to bring to justice those seeking to exploit our customs 
and immigration laws worldwide. The President's fiscal year 2017 budget 
request seeks $2.12 billion for HSI to support current operational 
efforts in the upcoming fiscal year as well as maintain the additional 
special agents and investigative support staff funded in the fiscal 
year 2016 enacted appropriation. In its investigative capacity, HSI 
focuses its broad investigative authority on three operational 
priorities--border security, public safety, and counterterrorism/
national security.
    HSI investigates customs and immigration crimes, including 
transnational criminal organizations (TCOs) engaged in illicit activity 
related to export enforcement, human rights violations, narcotics, 
weapons and contraband smuggling, financial crimes, cybercrimes and 
child exploitation, human smuggling and trafficking, intellectual 
property theft and trade fraud, transnational gangs, and immigration 
document and benefit fraud. Notably, in fiscal year 2015, HSI 
investigations led to the disruption or dismantlement of approximately 
239 TCOs. HSI made more than 33,000 criminal arrests, including more 
than 3,500 transnational gang members. HSI also seized more than 1.08 
million pounds of narcotics, 1,479 seizures for violations of U.S. 
export laws and regulations, and nearly $513 million in currency and 
monetary instruments. Additionally, HSI identified and assisted more 
than 2,300 crime victims, including 384 human trafficking victims and 
more than 1,000 child exploitation victims. In connection with HSI's 
investigations, we are also working with the Department of Labor and 
other agencies to ensure, for the protection of workers, the consistent 
enforcement of Federal labor, employment and immigration laws.
    One of the top investigative priorities for ICE is human smuggling 
and trafficking, for which ICE possesses a full range of investigative 
and border-related authorities. In response to the sudden influx of 
unaccompanied children in fiscal year 2014, ICE initiated Operation 
Coyote, which was designed specifically to stem the flow of illegal 
Central American immigration, including that of unaccompanied minors, 
by targeting the human smuggling organizations that facilitate these 
illegal activities. HSI deployed personnel to strengthen capacity for 
conducting human smuggling investigations and enforcement actions, and 
for monitoring international conditions to enable targeted responses to 
the influx during the sustained operational period.
    To build upon its early investigative accomplishments, HSI expanded 
the initiative not only across the country, but worldwide, to harness 
all HSI activity related to the smuggling of Central Americans into the 
United States. On March 23, 2015, HSI commenced Operation Coyote 2.0, 
which built upon the foundation set by the preceding operational 
activities to further evolve and enhance HSI's overall human smuggling 
strategy. In fiscal year 2015, the operation resulted in 876 criminal 
arrests, 690 indictments, and 612 convictions related to human 
smuggling investigations.
    Terrorism remains one of the most significant threats U.S. law 
enforcement faces in protecting the homeland. Counterterrorism and 
criminal exploitation efforts seek to prevent terrorists and other 
criminals, such as human rights violators, from exploiting the Nation's 
immigration system. HSI's overstay analysis efforts provide timely, 
relevant, and credible information on entry, exit, and immigration 
overstay status of visitors to the United States in order to enhance 
security, facilitate legitimate trade and travel, and ensure the 
integrity of the immigration system, as well as to protect the privacy 
of visitors.
    HSI is the second largest contributor of Federal agents to the FBI-
led Joint Terrorism Task Forces (JTTFs), which benefit from HSI agents' 
investigative expertise and broad enforcement authorities. ICE will 
continue its participation in more than 100 JTTFs supporting and 
complementing counterterrorism investigations with ICE's unique 
immigration and trade-based authorities. In addition, HSI oversees the 
Human Rights Violators and War Crimes Center, which fosters an agency-
wide approach to pursue human rights and war crimes violators by 
bringing together the resources of the various U.S. Government agencies 
that have a role in dealing with these offenders.
    Finally, HSI's Visa Security Program (VSP) maximizes the visa 
process as a counterterrorism tool to identify terrorists, criminals 
and other aliens ineligible for a visa prior to their travel or 
application for admission to the United States. VSP differs from other 
U.S. Government screening efforts in that it leverages its 
capabilities, such as in-person interviews and working with 
international law enforcement partners to investigate suspect 
travelers, enhance existing information, and identify previously 
unknown threats, instead of simply denying visas and any potential 
travel. In fiscal year 2015, HSI opened six new overseas VSP posts--the 
largest single-year expansion in the history of the program--and 
reviewed over 2 million visa applications, including approximately 
8,600 cases in which visas were refused for a variety of reasons, 
including for suspected connection to terrorism or terrorist 
organizations. The President's fiscal year 2017 request includes $32.5 
million to sustain the expansions made in fiscal year 2015 and maintain 
current operations.
                maintaining and sustaining our workforce
    Because of the generous funding increases ICE received in the 
fiscal year 2015 and fiscal year 2016 appropriations bills, the agency 
has been able to aggressively hire front-line operational staff and 
support staff. In fiscal year 2015, ICE hired 92 attorneys and 437 law 
enforcement officers (LEOs) to enforce our immigration laws and 
investigate transnational criminal organizations. Currently in fiscal 
year 2016, we have brought on 111 LEOs and 28 attorneys who will 
continue to carry out the mission of ICE. For the remainder of this 
year, we plan to hire approximately 750 personnel. The President's 
fiscal year 2017 budget request will maintain those added as a result 
of the fiscal year 2016 hiring efforts, and allow the agency to 
continue to hire to maintain operational pace.
    To better inform our resource allocation and staffing needs, ICE 
has developed a new repeatable, evidence-based resource management 
approach, which employs a three-pronged strategy to tie workload 
resources to requirements. The Workload Staffing Model (WSM) uses 
workload capacity to determine appropriate staffing levels and funding 
requirements. WSM also allows ICE to justify its staffing requirements 
and models the impact those resources have on public safety and 
national security.
         investing in information technology and infrastructure
    Just as important as the resources needed to fulfill ICE's 
enforcement and investigative missions, are the tools required to carry 
out the agency's operations. The President's fiscal year 2017 request 
includes $43 million to fund the deployment and modernization of ICE's 
information technology applications, systems infrastructure that 
support our front-line personnel and improves information sharing with 
DHS and partner organizations. The funds requested will enable ICE to 
continue migration from the agency's legacy financial system to a 
shared service provider; refresh ICE's information technology 
infrastructure; and complete the modernization of ICE's law enforcement 
case management system.
    The request also includes an additional $16.1 million in fiscal 
year 2017 to support critical improvements in Identity, Credentials, 
and Access Management (ICAM), cloud support, and system bandwidth to 
ensure 24/7/365 availability and to meet the cybersecurity needs of ICE 
information technology systems, infrastructure, and services.
                               conclusion
    ICE will continue to play a critical role in fulfilling DHS's 
national security, border security, and public safety mission. To that 
end, the fiscal year 2017 request ensures ICE has the resources to 
support DHS-wide efforts. Thank you again for the opportunity to 
testify today and for your continued support of ICE and its critical 
national security and public safety mission. I look forward to 
answering any questions you have at this time.

    Senator Hoeven. Thank you, Director.
    Okay. We will start with the 5-minute rounds of 
questioning. I see they have allocated me 10, so they are 
optimistic there, but I think we will go with 5.

                             BORDER METRICS

    Commissioner McAleenan, I want to start out with measuring 
apprehensions on the border. CBP has long measured the number 
of apprehensions you make each year, but how do you understand 
whether from year to year the changes reflect your ability to 
make sure that you are apprehending those trying to come across 
versus fewer people trying to come across if you only measure 
apprehensions? So talk to me in terms of really understanding 
situational awareness on the border in terms of what is 
happening and whether you are in fact improving your 
apprehension rate.
    Mr. McAleenan. Thank you, Mr. Chairman, for the question 
and for your comments in your opening remarks.
    I think getting this problem right is a huge priority for 
the Secretary, for the Commissioner, and certainly for me and 
the Chief of the Border Patrol because we have not achieved 
success in a set of agreed metrics that Congress and the 
American people have confidence in in how we are measuring our 
border security. And we would like to be able to successfully 
convey the significant improvements we see through metrics that 
are peer-reviewed, that are acceptable to Congress and the 
public.
    So you are absolutely correct. Historically, we have 
reported and relied on metrics like apprehensions, which is an 
output measure that shows how traffic is changing. It is an 
important baseline for us. But I think what we have been 
engaged in in the last 5 or 6 years is working toward a more 
sophisticated and telling set of metrics that really tries to 
get at the outcomes, identifying how many people are crossing 
and how many of those that we are catching or forcing to turn 
back.
    So I think that starts with improvements in our situational 
awareness and really trying to convey what those improvements 
mean in a set of numbers that are agreed and acceptable. For 
instance, with the support of this committee, in our high-
traffic or urban areas we have achieved a density of deployment 
of technology--sensors, cameras, fencing, agents--that is 
giving us high confidence that we are seeing the vast majority 
of traffic there.
    In our low-traffic areas, we are using aerial detection 
techniques with our UAS, unmanned aerial systems, as well as 
other agency capability to really get a sense of what is not 
crossing in those low areas using change detection techniques.
    But what we need to get to, and I think what you are 
driving at, Mr. Chairman, is a more holistic view of the 
outcome. What we are doing there in CBP with the data we 
control is using our interdiction effectiveness rate, which 
takes the apprehensions and those people that we have turned 
back and that we have seen our agents deter from crossing over 
the known crossings, and we have really enhanced our 
methodology for identifying the total known crossings. So we 
know we are not catching everybody, and our formula is very 
refined at this point in how we are capturing that data.
    What this does, though, and the limitation that we want to 
continue to enhance is it identifies those known crossers. We 
would like to work with academics and outside peer-review 
studies to help us identify the unknown crossing as well. That 
is what the Secretary has asked us to do. We will be briefing 
your staff later this month on the initial promising results 
from that effort.
    But I can tell you this: It supports our internal data in 
showing the significant trends, the reduction in total 
crossings, the increase in our effectiveness at identifying and 
interdicting those crossings, and the important gains we have 
made in deterring those who would cross illegally by meting out 
consequences to deter them from a future attempt.
    So I think this is an area that you would have broad 
receptiveness at the Department and CBP to continue to improve, 
and we would like to work with you and your committee staff on 
those issues.
    Senator Hoeven. Well, your apprehensions dropped by 30 
percent from 2014 to 2015, but we need to understand how that 
relates to the number of individuals who tried to cross, right, 
to make that a meaningful number. And, you know, we are 
deploying all this technology that--the ranking member and I 
were down there last year and saw all the new technologies you 
have. Like you said, unmanned and remotely piloted aircraft 
(RPAs), UAS, some of the technology that has been brought from 
the war effort in Afghanistan and Iraq.
    So helicopters, FLIR, night flights, all this should start 
to give you a pretty good ability to evaluate, you know, how 
many are trying to come in and then how many you are in fact 
interdicting, turning back, apprehending. So when are we going 
to see--and obviously, this is very important information for 
the public to know, to understand what you are doing. When do 
you anticipate we are going to see these kind of metrics?
    Mr. McAleenan. So we can provide you our internal numbers, 
our State of the Border metrics that include those sort of 
outcome estimates, our interdiction effectiveness rate now. It 
is challenging, as you note, to collate the results from all 
that surveillance technology from our agents who are working 
the line and capturing the number of total entries that they 
see. We have done that. We set it up by policy and we have 
captured it rigorously for the last 3 years and we are able to 
see changes over time and report those to you and your 
committee.
    What we would like to do is expand our data sources to 
include estimates of crossings that we might have missed 
despite the significant deployment. Despite our ability to 
patrol the remote areas with aerial technology, we would like 
to get even better at it and more refined. And that is what we 
would like to continue to work with your committee on.
    Senator Hoeven. And where are we in that timeline of 
getting to something that you think really tells us what is 
going on?
    Mr. McAleenan. I think there is some really promising 
analysis that has been done most specifically in the area of 
illegal crossing between ports of entry. It does not have the 
same results as our internal numbers, but it is very supportive 
of the same trend lines and makes sense with what we are seeing 
operationally. That is what I believe is going to be presented 
to your team later this month.
    Senator Hoeven. Very good. Thank you.
    Ranking member.
    Senator Shaheen. Thank you.

                        EUROPEAN REFUGEE CRISIS

    Last week, Deputy McAleenan, you were with Secretary 
Johnson in Turkey and you visited a refugee camp and signed two 
bilateral accords to codify mutual commitment to working 
together to combat terrorism. I wonder if you could talk a 
little bit about those discussions and how you discuss managing 
the flow of refugees fleeing ISIS and Assad and also to what 
extent you were able to assess Turkey's commitment to helping 
to address what is happening with the refugee crisis there.
    Mr. McAleenan. Certainly. Thank you, Ranking Member 
Shaheen.
    It was a very enlightening trip. I think it is a truism to 
say that if you really want to understand what is happening, 
you have got to go there and see and listen to the people on 
the ground doing the work to get a real sense of how it is 
being managed. And I think the Secretary, his senior team, and 
I came away with the sense that there is a significant 
commitment from our Turkish counterparts. They are under 
pressure from a number of different angles right now.
    Almost 3 million refugees estimated to be in Turkey and 
many of them in camps that are largely funded by Turkish 
Government funding, a number of them living in their major 
cities and needing support from human services in those 
metropolitan areas. And from our perspective they were doing a 
very good job at organizing the response with support from the 
United States, with support from Europe.
    And what the Secretary and the team was able to see was how 
our colleagues at U.S. Citizenship and Immigration Services 
(USCIS) are working with the United Nations High Commissioner 
for Refugees and with non-governmental organizations (NGOs) 
that are contracted by the Department of State to really vet 
those individuals that might be resettled in the United States.
    I was very impressed with the immigration officers there 
for USCIS, the asylum and refugee officers, their ability to 
interview and question the applicants. It reminded me of our 
CBP officers and border patrol agents in their interviewing 
techniques and their capabilities to identify aspects of a 
story that maybe did not add up. And I thought they were really 
approaching their task with significant diligence, 
understanding the risk.
    Senator Shaheen. I am sorry to interrupt but----
    Mr. McAleenan. Sure.
    Senator Shaheen [continuing]. Can I just clarify, so was 
much of the discussion there about those kinds of interviewing 
practices and how to determine which refugees might be able to 
relocate in the United States or other parts of the world and 
how much of it was around strengthening border security 
measures?
    Mr. McAleenan. So I think we had two priorities, to see the 
DHS personnel and assets carrying out their duties, which is 
the first part of that question. The second part was to really 
engage with the Turkish Government on how can we advance 
forward in our information-sharing, in our counterterrorism 
efforts regardless of whether an individual refugee might be 
settled in the United States. How can we support Turkey in its 
ability to address its counterterrorism threats from multiple 
groups, not just ISIS- and al-Qaeda-affiliated groups, but PKK, 
DHKP/C, which is a Marxist-Leninist group in Turkey that has 
also attacked the U.S. Embassy. We would like to work with them 
across all of those threats.
    And I think the letters of intent, the one signed with the 
Minister of Interior, one with the Minister of Customs and 
Trade, really show that commitment on both sides to exchange 
best practices. You know, Turkey has encountered more foreign 
fighters attempting to enter Syria than any other----
    Senator Shaheen. Right.
    Mr. McAleenan [continuing]. Customs and immigration force. 
So they have got a lot of lessons learned from those encounters 
that we would like to borrow from as we share our advanced 
analytical capabilities, targeting tools, and technologies.
    Senator Shaheen. So can you talk a little bit about what 
the follow-up to signing these agreements will be?
    Mr. McAleenan. Absolutely. We have a series of experts, 
consultations, and training that is on tap for the next coming 
months, hoping to start really this month to really get going 
on some of the initiatives. We are going to be taking the next 
step in our watch list and information-sharing, as well as our 
targeting techniques, going beyond just watch-list checking and 
using some of the rules that we use at our National Targeting 
Center to support their analysis on potential foreign fighters 
coming in. And ideally, we could work together to vet not only 
U.S.-bound refugees but other populations that are coming into 
Turkey where they would like to check an identity and see if 
the U.S. Government has any information on that.
    Senator Shaheen. And do you expect additional costs in the 
budget as the result of these activities?
    Mr. McAleenan. I think within our general collaboration 
with State Department on capacity-building with multiple 
countries in Europe and elsewhere, we have funding identified 
for these efforts. If we develop significant additional 
information-sharing on refugee populations, we might be seeking 
additional support in future years from the committee.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Senator Cassidy for his courtesy. Again, thank you very much.
    I want to thank both of you for your service and thank the 
people that work with you for their service also.

                              CBP STAFFING

    This morning, I brought up with Secretary Johnson the Port 
of Raymond. I am sure you have been briefed on it. They are 
going to cut the American side--at least there is a proposal to 
cut it--from 24 to 18 hours of asset. They take input from the 
public community, and you have, and I appreciate that.
    I was told there were two reasons. I will get into the 
second one in a minute but the first one was that it was too 
hard to get folks up there, Customs and Border Protection folks 
up there, and it could save some money. This is not applicable, 
but I mean, I have heard this line from the Postal Service, for 
example. They said we are going to close the processing 
centers. It ended up costing more money. It ended up costing 
them $66 million and they did it to save money.
    I only bring this up because the port of entry is just one 
issue; border security is another. It is not like you can pull 
people off that border and have it secure. And so I bring that 
up to let you know that Prime Minister Trudeau was in town this 
week. Canada is our largest trading partner, continues to be, 
and I think any of those ports up there that are 24 hours in 
nature are important if we are going to maintain and increase 
our ability to do business with Canada. That is just a 
statement for the record and for you here to take it back to 
your folks.
    [The referenced statement was not provided by press time.]
    Senator Tester. I want to talk about staffing for a second. 
We were told you could not get folks to get up there, and the 
question--and this is in the northern border, northeastern 
Montana, it is rural. It is frontier. The question I had is 
does Customs and Border Protection have a plan to hire folks to 
keep them up there? You are not going to hire somebody from 
Miami and put them on a northern border and expect them to stay 
there.
    But as I told Jeh Johnson this morning, if your recruitment 
is for people--if you at least make an attempt in rural areas--
and there are rural areas in North Dakota and New Hampshire and 
in Montana--you might be able to get folks to really want that 
job. These are good jobs, you know? I mean, they are good jobs. 
And so do you guys have a plan to hire folks to staff the 
northern border? Be as concise as you can.
    Mr. McAleenan. Very concisely, yes, Senator, we do. You 
have identified some of the challenges we face. Our earlier 
attempts at the broad recruiting announcements, which had 
multiple locations open----
    Senator Tester. Yes.
    Mr. McAleenan [continuing]. We were getting people applying 
for locations where we did not have high-priority hiring needs.
    Senator Tester. Right.
    Mr. McAleenan. We are now focused on the southern border 
locations where there are vast gaps in those hard-to-fill 
northern border locations----
    Senator Tester. Okay.
    Mr. McAleenan [continuing]. To augment staffing.
    Senator Tester. That is good. My recommendation would be 
just as I would tell any agency is go to where those people 
are. I mean, go to the university systems in Montana. Tell 
these folks you are looking for folks. The wages are good 
wages, man. They have got good benefits, better than most jobs 
in Montana, probably better than most jobs in North Dakota and 
New Hampshire. So you have got some recruiting tools there to 
use at your fingertips.

                            HONEY PRODUCERS

    The chairman brought up honey. Are you aware of how much 
interest is owed to those honey producers? That is the first 
question.
    Mr. McAleenan. Yes. My team is well aware----
    Senator Tester. Perfect.
    Mr. McAleenan [continuing]. And tracking that carefully.
    Senator Tester. That is perfect. So can you tell me when 
you are going to start distributing the dough?
    Mr. McAleenan. Yes, sir, by the end of this year is the 
plan for those settlement agreements entered into after October 
2014 based on the new legislation.
    Senator Tester. So it will be fully distributed by the end 
of this year? The money will be fully out in the producers' 
hands by the end of this year?
    Mr. McAleenan. I am told our initial distributions will 
begin occurring this calendar year, and we will keep the 
pressure on until that is completed.
    Senator Tester. I would ask that you do it ASAP. It does 
not matter what business you are in if money helps you stay in 
business. So this is money that is owed them. We should try to 
get it to them.

                          VISA WAIVER PROGRAM

    I have a question about the visa program and the overstays. 
DHS, I do not believe, has implemented the biometric entry and 
exit plan yet. And your own data says about 480,000 individuals 
overstayed their visas last year. I mean, immigration is a huge 
problem. We have got some folks that are on paper--I do not 
know how many million we have got now, 12, 13, maybe more than 
that million. The question is when is this program going to be 
implemented, number one? And number two, are you confident if 
you implement this program you are going to be able to suggest 
to folks to go home when their visas run out?
    Mr. McAleenan. So, number one, we have made significant 
advances in our biographic exit, and we have reported that. I 
think it was a milestone to get a report covering about 87 
percent of visitors this year, and we are going to continue to 
improve that.
    In terms of the biographic exit, the Secretary has given us 
a challenge of initiating implementation in 2018 at top 
airports, and we are going to meet that challenge. And we are 
aggressively piloting biometric technologies that can work 
within current processes with air carriers. We are hoping to 
pilot significant new approaches this summer with air carriers, 
and we have ongoing land border pilots in process.
    Senator Tester. Got you. What about everybody else? What 
about the folks that come across by land, by sea?
    Mr. McAleenan. So the land border, the idea is to target 
those crossings where we have significant people that are what 
we call ``in-scope,'' third country nationals subject to the 
exit requirement, to start identifying how we can use our 
facilities to route those folks through just like we did, 
frankly, with the National Security Entry-Exit Registration 
System (NSEERS) not so long ago in the aftermath of 9/11. That 
is our first step. It is very challenging, as you know, with 
the infrastructure on outbound lanes, so we have got a 
significant number of things that we need to work on in that 
set.
    Senator Tester. Well, I just--look, you guys are--I mean, 
you do a good job, okay? But the bottom line is if--I think 
this is really important. I mean, we have had an immigration 
debate since I got here 9 years ago. And part of that 
immigration debate is overstays on visas. And so if you can 
help us help you, please allow us to do that.
    Mr. Chairman, thank you very much for your generosity on 
time.
    Senator Hoeven. Forty percent of the problem is visa 
overstays, so you are on something very important there, 
Senator.
    Senator Cassidy.

                         COUNTERVAILIING DUTIES

    Senator Cassidy. I am a strong supporter of the Jones Act 
and see it as important for many reasons, not just domestic 
security but also the economy of our country. And I have worked 
with CBP and our Offshore Marine Service Association (OMSA) on 
meetings regarding this. Now, what I am told by the OMSA 
committee, by the OMSA folks is that, although on the shelf 
there is enforcement of Jones Act, off the shelf there is not. 
Of course, this has economic consequences.
    Senator Cassidy. Here is a slide that I will submit for the 
record, but it speaks of U.S.-owned Jones Act compliance-ship, 
which pays a tax rate of 36.5 percent, 100 percent U.S. crew 
with U.S. compliance culture, and here is a Norwegian-owned 
non-Jones-Act-compliant, which has a tax rate of 0 to 15 
percent with an entirely foreign crew and a non-U.S.-compliance 
culture. So if only for the tax rate, this becomes an important 
consideration. Obviously, if one is paying tax and the other is 
not, it is a competitive cost advantage for the ship that is 
not.
    [The informational slide follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cassidy. So the OMSA folks say that in the last few 
years they have given 13 different episodes, which they have 
documented, of violations of the Jones Act. I have seen some of 
these videos. They have a video of a foreign flagship with the 
number, dated, picking up goods being moved by a lift onto the 
ship, and that ship is followed, and that good is seen to be 
offloaded in the OCS, Outer Continental Shelf.
    Again, they said that 13 of such instances have been 
brought to your attention. Only one has actually been taken to 
the penalties being assessed, and 90 percent of those penalties 
were mitigated. So their feeling is right now if you are a 
company that wishes to violate the Jones Act, it is just the 
cost of doing business because you have less than an 8-percent 
chance of actually being busted, and if you get busted, then 90 
percent of your penalties are going to be mitigated.
    So let me first kind of run that by you, get your, you 
know, kind of opinion of what I just said, and then I will have 
some follow-ups.
    Mr. McAleenan. Thank you, Senator. And the Jones Act, as 
you identified, is a very, very important tool to the security 
and economy, something we work to enforce vigorously, and a lot 
of complexity involved both with the type of movement, the type 
of vessel, and the type of commodity or equipment that is being 
moved.
    I appreciate your reference to the Offshore Marine Services 
Association. Commissioner Kerlikowske recently met with them 
and got a good sense of their concerns. It is something that we 
are engaging our interagency partners both at the Maritime 
Administration (MARAD), as well as the U.S. Trade 
Representative, to see if there are options for kind of 
reviewing prior rulings and updating some of our findings going 
back to 2009. In terms of complaints, we should be following up 
on all complaints, and we have also heard the concerns on the 
penalty mitigation that we are going to take very seriously.
    So I think it is an important issue. I know the 
Commissioner has followed up, I believe, with recommendations 
from your office and will be continuing to engage on this with 
our interagency partners.
    Senator Cassidy. Now, would it be fair to say, then, to the 
folks who have expressed concerns about this, again kind of, as 
I am told, kind of a blind eye being cast to these violations, 
that that blind eye will not continue to be cast and that 
penalties will be assessed in compliance with the law but on 
the nature in order to persuade others not to violate the law? 
Is that a commitment?
    Mr. McAleenan. That is absolutely a commitment. There will 
be no blind eye, and penalties will be commensurate with the 
violation. We cannot always promise complete agreement on the 
assessment of the stakeholders and the actual issue, but we 
will work together to be transparent and communicate how we are 
approaching it.
    Senator Cassidy. Okay. Well, I thank you for that answer, 
and I yield back.
    Senator Hoeven. Thank you, Senator.

                         ICE REMOVAL OPERATIONS

    My next question is for Deputy Director Ragsdale, and that 
relates to ICE removal operations. The number of individuals 
removed declined from 2014 to 2015, and so my question is for 
ICE removal operations. Why is that, and how are you 
prioritizing your operations and your activities?
    Mr. Ragsdale. Thank you, Chairman, for that question.
    First of all, as you know, and you have heard from 
Secretary Johnson, he issued a prioritization for the 
apprehension, detention, and removal of aliens for DHS in 
November of last year. ICE, of course, follows that guidance. 
And if we look at our detained population now and over several 
snapshots over the last year, over 95 percent of the folks in 
our detention meet the Secretary's priorities. So we are 
following very closely a prioritization in a descending order 
to have recent border crossers and criminal aliens the focus of 
our efforts.
    As you heard from the deputy commissioner, illegal 
crossings are down. We are obviously a responsive organization 
to the frontline work at CBP in terms of not only the number of 
people in our detention beds but overall removal numbers.
    We also, as I mentioned, have worked over the last year to 
make sure that as many State and local jurisdictions who are 
incarcerating people who are foreign-born and removable are 
transferred to ICE. We have, over the last year, had an 
accelerating challenge of having what we call--to make street 
arrests. It is a much more labor-intensive officer-time-
intensive occupation to go and find someone as opposed to 
having custody transferred from one institution to ICE.
    So what I would suggest is while the number of removals may 
be down over the course of the last couple of years, the 
overall crossings are down, and we do think that is a driver. 
And we also would say that the prioritization for public safety 
of the removal of criminal aliens and recent border entrants 
are our number, essentially, one and two priorities, and that 
also was driving not so much the volume but the effectiveness 
and the impact of the folks we are removing.
    Senator Hoeven. What are your bottlenecks?
    Mr. Ragsdale. Well, there is one very important driver 
here. ICE can only remove individuals that we have a final 
order of removal. ICE is not the decisionmaker. DHS is not the 
decision-maker. We are a customer of the Department of 
Justice's Office of Immigration Review. I would suggest that if 
you looked at the scope of the DHS enforcement capability along 
the border and the interior and the capability of the Executive 
Office for Immigration Review (EOIR) to make decisions in a 
timely way, there is a disconnect.
    You know, we have seen, for example, in our Newark office 
that if we file a removal charging document called a Notice to 
Appear, in Newark it takes maybe 1,000 days before that case 
becomes ready for an initial hearing. That is a challenge for 
EOIR, and it is a challenge for enforcement agencies such as 
ICE to get decisions quickly.
    We certainly want to give people due process. There are, 
you know, many, many reasons to honor the rule of law, and 
certainly, as we hold ourselves out in a global community as 
responsible adjudicators of immigration benefits, we certainly 
want to be clear about that. But I would suggest the process is 
slow, and that is definitely a bottleneck.
    Senator Hoeven. Is it a shortage of judges? What is the 
issue?
    Mr. Ragsdale. I certainly do not want to speak for them. 
What I will just tell you from our experience that the size of 
that agency and the core of immigration judges has not 
materially increased in terms of on-board strength over the 
last, probably, decade. I know they have hiring challenges as 
well and certainly know that their Director is, you know, 
heavily engaged in this discussion. But in terms of overall 
throughput and their number of cases that are pending, it is my 
understanding that their overall case docket in terms of 
pending cases has gone up.
    Senator Hoeven. How are you dealing with your immigration 
fugitive backlog? Do you have a backlog of immigration 
fugitives? How are you dealing with that?
    Mr. Ragsdale. So we have a facility up in Vermont that is 
our targeting center for fugitives and other at-large 
criminals. We are using all law enforcement databases, 
including information that is available in the public domain, 
to find those folks. We are obviously prioritizing them based 
on the counterterrorism threat, based on criminal history, so 
we are working very heavily on those folks, so they are 
absolutely part of our priorities.

                              ICE STAFFING

    Senator Hoeven. So I want to move to the same issue that 
Senator Tester brought up in regard to CBP filling slots. I 
mean, you have funding and authority for more Customs officers 
and Border Patrol agents than you have hired, and he asked the 
question what are you doing to fill that backlog? What are you 
doing to hire and retain? Same question for you, Deputy 
Director, with ICE.
    Mr. Ragsdale. So----
    Senator Hoeven. What are you doing to get people in those 
slots so you can cover the backlog and----
    Mr. Ragsdale. Well, a couple things. First of all, the--
    Senator Hoeven [continuing]. Keep those people, too?
    Mr. Ragsdale. We love our folks. We know they are our 
greatest asset, and we certainly want to keep them. We put a 
lot of investment in them, and we certainly want to keep them.
    We have done a couple of things. First of all, in spring of 
last year we knew we had about 1,800 people that the Congress 
gave us funding to hire, and by the end of the fiscal year, we 
had brought almost all those 1,800 people on board.
    We have kept that pace into this fiscal year and done a 
couple of things. We know we have two bottlenecks, to use your 
term, in terms of having a pool of medically cleared, 
interviewed folks in which to draw from, and that is a function 
of our Human Capital program. We also have to make sure that we 
are doing appropriately--a background screening in terms of our 
suitability decisions to bring these people on board. We have 
not looked at sort of the throughput of both of those two 
organizations. We are going to make some adjustments in terms 
of staffing and contract support in both of those two areas.
    We have also kicked off hiring fairs, essentially a one-
stop shop particularly for our Enforcement and Removal 
Operations (ERO) law enforcement where the interview, the 
medical, and the screening begins. So in other words, we are 
not waiting for this transaction back-and-forth between the 
potential employee and the agency.
    So we are looking very, very hard at every single one of 
those cycle times. I have a meeting on it every week to make 
sure we are going to meet our hiring goals. I understand off 
the top of my head that we are supposed to reach 21,067 by the 
end of this fiscal year, and we are going to do everything we 
can to hit that goal.

                               CBP HIRING

    Senator Hoeven. And, Deputy Commissioner, one of the big 
concerns with your workforce is overtime. Because you do not 
have all the slots filled and you are having trouble hiring and 
retaining, what are you going to do this year to address that?
    Mr. McAleenan. Mr. Chairman, thank you. There is really no 
area of our mission support efforts that is getting greater 
focus from the Commissioner, from myself. Like Deputy Director 
Ragsdale, I meet weekly with our hiring team and we have been 
really trying to drive this process forward.
    I have various levels of detail I can go into here. I will 
stay in the upper level and certainly can talk about any 
aspects you would like to hear further, but we have confronted 
some significant challenges. One, our border patrol attrition 
has gone up significantly from a historical rate of about 3 
percent. Last year, we saw 5.5 percent attrition driven by 
primarily two factors: agents leaving for other jobs within CBP 
and with other agencies merely to get to other locations. And 
for other agencies, it is for pay. They wanted to maintain 
their administrative uncontrollable overtime (AUO).
    We also went through the data breaches with Office of 
Personnel Management (OPM) and the USIS, which really delayed 
us 2 months in background investigations a year-and-a-half ago 
and then had to get our new contractors on board with new 
agreements.
    We have low polygraph-clear rates and a lack of full 
polygraph capacity, not enough federally certified polygraphers 
to keep pace with the requirement, which we think is very 
valuable in assuring the integrity of our frontline personnel.
    We are also dealing with a big change in unemployment from 
9 percent to 5 percent between our last hiring surge efforts 
and competition with other agencies that are now aggressively 
hiring as well.
    We also had some internal challenges, which, like Dan, we 
are aggressively working and fixing on recruiting and targeted 
recruiting and efficiency with handoffs.
    So real quickly, the key techniques we are employing are 
hiring hubs. Instead of having our 11-step process take place 
sequentially across multiple offices, we are trying to condense 
the core of that effort into a focused multiday session in a 
location where we can do the interview, the polygraph, the 
suitability clearance, and the medical together with our 
applicants. That has taken an average time to hire from over a 
year-and-a-half down to about 160 days on average for our 
hiring hub applicants. We are going to continue to press that.
    Enhanced recruiting, both with our veterans and with 
universities, as Senator Tester was referencing, that has 
increased the viability. We are getting a better candidate out 
of that process and also targeting those locations where we 
need them. So, for instance, our border patrol agents, we used 
to need 240 applicants for one successful on-boarding. We are 
now down to 195 to one. And our CBP officers, we had gotten 
under 100 to one, and we will continue that effort.
    We have been to over 400 events with the Department of 
Defense (DOD) trying to transition the veterans directly to our 
workforce, see if we can have reciprocity for their medical and 
several steps in their process. Over 30 percent of our 
frontline hiring is driven by veterans transitioning, and we 
intend to ramp up those efforts. We have had more recruiting 
events in the first half of this year by 100 percent than we 
had in the first half of last year, and we want to continue 
that effort.
    So a ton of work going into this. It is a big challenge. 
There are some societal prevailing winds, if you will, in the 
environment vis-a-vis law enforcement and the overall strength 
of the economy outside of Federal employment, but we are going 
to keep at it and try to improve aggressively.
    Senator Hoeven. And a very important issue for the morale 
of your workforce as well, so it does need your full time and 
attention.
    And you mentioned the focus on reaching out to veterans, 
and I think that is a good initiative, and I strongly urge you, 
you know, to continue to do that.
    Ranking Member Shaheen.
    Senator Shaheen. Thank you.
    I appreciate the details with which you are talking about 
the efforts to hire more, but given past history and given some 
of the challenges, do you think it is realistic to think you 
are going to be able to hire the number of employees that are 
proposed in the budget request?
    Mr. McAleenan. In the 2017 budget request, I think so. We 
have tried working with your staff, with the Office of 
Management and Budget (OMB) to come up with a realistic 
estimate based on the pace of our hiring. We are getting very 
close to our targets with CBP officers. By the end of the year, 
we think we will be within a few hundred officers of our 
authorized.
    With the border patrol agents, we are trying to arrest the 
attrition that is causing a decline and get that going in the 
right direction. And so our 2017 request reflects modest 
success in doing that, not our full target and goal, which we 
are still pursuing. So we have tried to calibrate that right. 
We are looking forward to hearing your team's reaction to 
whether we got the number right, but that is a high priority 
for us.
    Senator Shaheen. I guess I would say, as much as I support 
and appreciate the efforts underway, I still have reservations 
about whether you are going to reach the numbers. And given 
that, what would be priorities for those funds if you cannot 
reach the numbers that you are hoping to, and why should we not 
take those dollars and use them someplace else in the budget 
from DHS?
    Mr. McAleenan. I would offer, Senator, that we would have 
critical priorities that could advance our capability for 
border security and not necessarily achieve it with personnel 
but achieve it with technology, for instance, with surveillance 
technology, investments we are making.
    You may have also seen in the 2017 request we have made an 
explicit tradeoff between 300 border patrol agents and the 
vehicles and radios we need to keep them safe and make them 
effective in carrying out their duties. That was a challenging 
analysis for us, but we believe, given the state of our hiring 
and given the need to avoid having personnel with no equipment, 
that we needed to make that investment. We have several other 
targeted investments we could make on the core technology and 
mobility equipment, as well as the surveillance for agents. The 
other place is the targeting, which extends our capability for 
our officers extensively.
    Senator Shaheen. I did see the nightly news program that 
showed the use of forces on the southern border, which I 
thought was a very positive view of CBP and its efforts to be 
creative, so I do applaud that.

                               ICE HIRING

    I guess I would say the same thing, Deputy Assistant 
Director Ragsdale, about ICE and the concerns that I have about 
your ability to hire. And I know that we are encouraged by some 
of the gains that you have made so far of this fiscal year, but 
my calculations are that you are approximately 2,000 people 
down in terms of outstanding vacancies. So what is the plan to 
replace those folks, and what are you looking at if you cannot 
do that?
    Mr. Ragsdale. So we made a real press, as I said, last year 
and hired about 1,800 people from March to the end of 
September, and we have kept that pace going. So I think the----
    Senator Shaheen. Can I ask, though, it is my understanding 
that a good percentage of those people were from CBP that were 
hired.
    Mr. Ragsdale. So without doing violence to my partner here, 
it is true that when we put out both announcements for both our 
ERO officers and our Homeland Security Investigations (HSI) 
special agents, we do draw from other partners in the 
Department. I am happy that they stay in the family in some 
ways, but----
    Senator Shaheen. Sure, but it does not get us to the bottom 
line that we are trying to achieve.
    Mr. Ragsdale. It does present a challenge for my colleague, 
I agree. So we have a range of announcements obviously both 
within DHS and out. We obviously rely heavily on veterans. We 
have several programs, our HERO program, Wounded Warriors that 
are also, you know, input streams.
    You know, we have prioritized this. We have a smaller 
overall numerical challenge than CBP does. I am optimistic, 
particularly as I said earlier, that the men and women of ICE 
are our number one asset, and we know we cannot get the work 
done without them. But this will be a priority.
    In terms of, you know, what would we do with the money, you 
know, hopefully, that will be a very small, small amount. You 
know, in terms of the ERO piece, you know the largest piece of 
our spending in ERO is detention beds, and that will ebb and 
flow. So we will certainly see what the apprehension demand is. 
And then for HSI, those either go into investments to, again, 
train and equip our folks. So all of those things are in the 
service in which you have appropriated them.
    Senator Shaheen. So I know that the unemployment rate has 
gone down, and we all, I think, would agree that that is a good 
thing, but we still have a significant number of people who are 
no longer looking for work, who do not have the job skills that 
are needed. So what is the issue here in terms of--I know the 
process is challenging because of everything that is involved, 
the drug testing, all of the other testing that is involved in 
getting people on board, but are we not paying enough? Is it 
that people do not know enough about the agencies to have an 
interest in joining?
    I mean, I know that we have lots of people in New Hampshire 
anyway who are interested in going to the police academy and 
join law enforcement. So why can we not get the number of 
people that we need to hire to fill these positions?
    Mr. Ragsdale. So I will just take one stab at that. You 
know, it is not a volume question of us getting applicants. If 
we put out street-level announcements, we have thousands and 
thousands and thousands, even tens of thousands of applicants. 
Suitability is an issue, and we obviously want the right people 
with integrity in law enforcement jobs, the solemn oath, and we 
certainly--you know, we take very seriously the screening 
process.
    The challenge, I think, would be fair to say is also sort 
of the retention piece. At ICE, I mean, in particular in our 
Enforcement Removal Operations component, we do have an 
overtime issue with administratively uncontrollable overtime 
that is an antiquated system. It is a morale problem. It is a 
retention problem. It is a real challenge.
    You know, for the modern system that now border patrol has, 
and we see we are an outlier without it, that does not help not 
only keep folks what I will say is fully happy about their jobs 
but also it does not sort of represent a modern 21st century 
position when the law enforcement overtime is not a modern 
system.
    So, you know, the attrition piece is as much of a 
challenge. I think the entry-level folks can be a managed 
problem, but we want to keep the folks we have invested so much 
in.

                               CBP HIRING

    Senator Shaheen. Would you agree?
    Mr. McAleenan. I would agree with all those points and also 
to your direction, I mean, it is a tremendous career. I think 
we need to do a better job of explaining the opportunities and 
the excitement around this. We have officers and agents in all 
50 States, in 75 locations, in 60 countries doing all sorts of 
interesting, meaningful mission-related work, and that is 
actually the feedback we continue to get, the positive side of 
our surveys.
    I think, as Dan alluded to, the standards are very high. We 
are seeing applicants with a higher degree of recreational drug 
use than in prior years. That is a challenge for our standards, 
as well as the polygraph clearance.
    The other piece for CBP is the locations. We need people in 
remote border locations, southern and northern, and we are 
competing with agencies that are hiring in Fairfax, Virginia, 
or, you know, New York City or Nashua, New Hampshire.
    So it is not as straightforward. We do need to tell our 
story better. I think when we did the surge for the border 
patrol, a really aggressive recruiting campaign, out there in 
the media, got a lot of excitement around the career and the 
interest, I think we have got to look at some of those 
techniques and really push the recruiting side, tell the story.
    Senator Shaheen. I would say, though, I would echo what 
Senator Tester said because in northern New Hampshire where we 
have a point of entry, those jobs, there is a lot of interest 
in those jobs. In northern New Hampshire it is very difficult 
to find jobs that are that good, that pay that well, that have 
those kinds of benefits, and so there is a great deal of 
interest. So I would hope that we are encouraging the local 
population where there are job openings available to apply and 
looking very hard at how we can accept them in those positions.
    Thank you, Mr. Chairman.
    Senator Hoeven. Senator Cassidy.

                          ICE DETECTION POLICY

    Senator Cassidy. If there is someone who has committed a 
crime who is here illegally, commits a crime, goes into--and/or 
as an ICE detainee or as otherwise a ward of the State or the 
Federal Government, I gather that when they are released from 
detention, even if they have committed a crime, if they have 
done their time, they are not automatically deported, rather 
that they enter back into society. Is that correct?
    Mr. Ragsdale. So thank you for that question. Folks that 
ICE detains we only release if we cannot remove them. So we are 
not doing anything in terms of releases when we can in fact 
take that person with a travel document, with a final order of 
removal and remove them to their country of nationality.
    Senator Cassidy. Now, if, for example, they are arrested by 
the State of New Hampshire and they have committed a crime and 
they do 6 months in a New Hampshire jail or prison, they are 
here illegally, they are released, they are not released and 
deported. Rather, even if they are detained, you would need a 
document to deport them, correct?
    Mr. Ragsdale. So that is exactly right, Senator. So, again, 
ICE is not the decisionmaker----
    Senator Cassidy. I get that.
    Mr. Ragsdale [continuing]. In that context.
    Senator Cassidy. You all have made that point very well, 
and that has been very helpful to me. My concern is that there 
is a class of offenders whose record remains with them, 
specifically sex offenders, and that is Adam Walsh and a lot of 
other laws. So let us assume that either ICE releases someone 
from ICE detainment or a jail or prison releases someone and 
ICE is aware that they are here illegally but you have no 
papers to deport, what is your mechanism of notifying law 
enforcement wherever that person plans to reside that a sex 
offender is coming into their community?
    Mr. Ragsdale. So we have, over the last fiscal year, 
implemented a system we call LENS, the Law Enforcement 
Notification System, and we have implemented that in all 50 
States. And when ICE releases a person from our detention 
capability to a State or local jurisdiction, we notify that 
State's criminal justice agency of that person being released 
in their community.
    Senator Cassidy. Now, let me ask--so my staff, though, 
tells me that LENS only speaks with the State and not with 
local law enforcement, so if you move him to my hometown of 
Baton Rouge, it is not that the East Baton Rouge Parish sheriff 
would be notified or the Baton Rouge Police Department (BRPD), 
rather the State would, and you would rely upon the State to 
filter that information down. Is that fair?
    Mr. Ragsdale. So, sir, that is exactly right. However, just 
based on sort of the sharing of what I will say is criminal 
information history and other biometrics, it is done what I 
will say is with the architecture you have described, but we 
are working, hopefully by the end of this fiscal year or early 
into next fiscal year, to have the LENS speak directly to the 
Baton Rouge sheriff that you have described. So, in other 
words, we will sort of be eliminating one level of that 
processing, that there is a direct connectivity between the 
LENS and the State and local jurisdiction.
    Senator Cassidy. And that was my concern because, as I 
gathered, not every State has a sex offender registry, which 
presumably means that every State does not necessarily have the 
seamless communication where like that the local police 
department is notified that of which the State knows. And so by 
this you are saying you will communicate on multiple levels 
simultaneously?
    Mr. Ragsdale. So that is correct. And the aperture is much 
broader than just sex offenders. These are people with criminal 
records that run a range of offenses. So the principle is 
really quite simple, which is, you know, to the extent we have 
to release people and there is some law or court decision or 
the fact that we cannot remove them we have to do that, we 
obviously want to share as much information with our partners 
as we can.
    Senator Cassidy. Now, let me ask, and let me even go back 
to the beginning basis of this, and given the statistic I have 
from the Center for Immigration Studies is that there are about 
36,000 criminal convicted aliens freed from ICE custody in the 
previous year. Many have multiple convictions. Of this 36,000, 
there are nearly 88,000 convictions. Why is it so hard to 
deport someone who has got, in some cases, multiple offenses? 
Knowing that you are not the decision-maker, can you tell me, 
what is the holdup of a judge saying, boom, you are out of 
here? Do you see what I am saying?
    Mr. Ragsdale. I surely do. What I can tell you is that 
number fell to under 20,000 for fiscal year 2015. It was a 
little over 19,000 releases. So we have certainly, you know, 
tightened our internal processes in terms of folks that we will 
attempt to detain. But, you know, whether it is the Ninth 
Circuit, the First Circuit, the Third Circuit, there have been 
Federal court decisions, there have been challenges in habeas 
corpus proceedings essentially challenging immigration 
detention. The authority we have to detain folks is attendant 
to removal. So if there is not a removal order from an 
immigration judge, we----
    Senator Cassidy. But that is not what I am asking. It 
almost seems like Kafka is here. I mean, we have got somebody 
who we know has committed a crime, who is here illegally, but 
somehow there is not the coordination between--let us assume 
that they are incarcerated in a local jail or prison, a State 
prison. It just seems like, 6 months before they were to be 
released, you would begin proceedings in order to deport them 
in.
    Mr. Ragsdale. So we absolutely do that, sir. For decades we 
have had that program. And in fact, we have also what I will 
say is expanded our relationship with the Bureau of Prisons 
that every single person who comes out of the Bureau of Prisons 
who is a criminal alien comes to ICE and we screen and to make 
sure that the removal process should not what I will say is 
take precedence over what could be an old criminal charge where 
there is a warrant that is pending. So we have solved that 
problem.
    All I can say is, as I said earlier, I think there is a 
throughput challenge within the Executive Office of Immigration 
Review, the immigration courts, and as a, you know, non-
decision-maker in this process, I certainly would argue on 
their behalf that speedier adjudications on the folks in the 
population you have described in particular would be time and 
effort well spent.
    Senator Cassidy. You are being incredibly diplomatic. I 
feel like there is another story we could have if it was off 
the record. So I will buy you a beer one time and we will have 
a conversation. I will buy you a six-pack, two six-packs.
    [Laughter.]
    Senator Cassidy. I yield back. Thank you.
    Senator Hoeven. I want to talk about detention beds, and so 
I will direct this to Director Ragsdale. You are reducing the 
total number of detention beds. And now, you just got done 
talking about PEP, or the Priority Enforcement Program, but for 
that to work you need to have those beds. And so given that you 
are actually reducing below your current census, how are you 
going to manage that, and how are you going to make PEP work as 
well as, you know, these other programs you have been talking 
about for your removal operations?
    Mr. Ragsdale. Well, so thank you for that question, Mr. 
Chairman. A couple things, which, first of all, you know, we 
know that, again, with the length of time it takes for 
immigration judges to make decisions, there is essentially an 
increased throughput in our detention beds. In other words, the 
number of folks who go through immigration proceedings while in 
detention is roughly about 10 percent of the active cases.
    So we are trying to calculate what we will need in terms of 
detention based on flows across our border, releases from jails 
and institutions, and some level of seasonality. So you noted 
earlier that the number had been higher earlier in the year but 
then by mid-January that number was back down to around 31,000. 
We expect to see that number fall as the weather gets warmer in 
the Southwest and the yearly average to be essentially in line 
with what we have asked.
    As I said, you know, in the Ninth Circuit in particular 
with the Rodriguez decision, we have a presumptive period of 
holding someone for 6 months regardless of whether or not they 
are subject to a type of detention that is considered 
mandatory. In fact, once we hit that 180th day, the burden 
shifts to the government to try to hold onto that person 
despite what could be a rather egregious criminal record.
    So we are trying to use our detention beds in the smartest 
way possible both for adults and families, and that is a number 
that is flexible. In other words, it is not, you know, 
prescribed to be one type or another, that we have some ability 
to be nimble there.
    But I will also tell you that particularly as it relates to 
detention beds, the return on investment for our international 
operations, we had our investigative units in the Caribbean, 
Dominican Republic--I was just there--in Honduras, in El 
Salvador, in Panama, and Guatemala where we have local 
prosecutors, local police officers dismantling the smuggling 
organizations. That is a far better service to the taxpayer 
that keeps those people from coming here to begin with, as 
opposed to putting detention beds only for having a bond 
decision while they wait for a hearing that may be many years 
away.
    Senator Hoeven. But the cost for one of those agents is 
three times the cost for your domestic agents, so do you have 
the statistics to back that up? Because to make that case, you 
are going to have to show the benefits and these other costs.
    Mr. Ragsdale. So we are working very diligently on it. And 
here is what I will suggest: You know, our international 
program is absolutely, you know, an important part and in 
service of our domestic investigations. So, you know, we are a 
smuggling investigative agency. We know there is border nexus 
in almost all of the cases we investigate.
    But from a homeland security perspective, stopping the 
flows of contraband and people who are not authorized to come 
to the United States at these various checkpoints whether in 
Central America, whether in South America, or around the globe 
in Europe is a far better outcome than sort of waiting for 
folks to get here and then trying to detain them.
    Senator Hoeven. And it makes sense, but how are you 
evaluating the effectiveness of those people so that we can 
compare the cost and the benefits relative to your domestic 
operations?
    Mr. Ragsdale. We will be happy to work with your staff on 
those metrics.
    Senator Hoeven. It does make a lot of sense, but you have 
got to be able to track it and demonstrate it, you know----
    Mr. Ragsdale. So----
    Senator Hoeven [continuing]. Ounce of prevention, pound of 
cure. I mean, it does make sense----
    Mr. Ragsdale. But that is----
    Senator Hoeven [continuing]. But you still have to be able 
to track that effectiveness and quantify it somehow.
    Mr. Ragsdale. That is exactly right. And I will----
    Senator Hoeven. Same thing for Customs and Border 
Protection as well.
    Mr. Ragsdale. It is essentially, you know, a version of 
pushing the border out that just operates in many effective 
ways, and we certainly want to work with you on that.
    Senator Hoeven. Right. And I think that is a good case to 
make, but we have to make it effectively. So when we are 
putting this budget together, we can say, yes, that is the 
right resource allocation.
    Mr. Ragsdale. Yes, sir.
    Senator Hoeven. Technology, I would say for both of you, in 
terms of technology, where are you relative to where you want 
to be with getting the right technology and having the adequate 
technology and the right mix of technology with your people?
    Mr. Ragsdale. So we have had a couple of what I will say 
are success stories at ICE. We have modernized for our general 
counsel program their case management system. We did that with 
a commercial off-the-shelf system, very small in the relative 
scheme of things but certainly something that has made the 
lawyers much more effective in terms of the litigation 
processes.
    We are on the verge of modernizing our investigative case 
management system used by our criminal investigators in 
partnership with CBP. We are going to have what I will say is a 
modern case file that will replace a green screen that the 
agencies use now. There is a certainly some irony to sending 
somebody who was born in, you know, the 1990s to look at a 
computer with a green screen. So that is something that will 
disappear this year.
    For our ERO program, that is where we are working--we have 
worked closely with your staff to get a modern system. We have 
a system that was actually released not that long ago in the 
scheme of things, in the mid-2000s, but it does not capture all 
the information about the folks encountered by ERO that we are 
so often queried about. It is an encounter-based system. It is 
based on sort of transactions that officers update often 
manually with narrative fields. It does not regularly integrate 
well with sort of the criminal justice information and 
geographic information and sort of released information, which 
is often what our stakeholders and overseers want to work and 
get information on.
    So we are working to modernize that system. You have given 
us what I will say is money to start that analysis. We will 
certainly work with you to come back as we sort of formulate 
the proper requirements.

                         CBP BORDER TECHNOLOGY

    Senator Hoeven. How about on the CBP side?
    Mr. McAleenan. So I will cover a couple of different areas 
quickly and can go down----
    Senator Hoeven. Just priorities for technology and where 
you feel you are in terms of having the technology you need to 
do your job.
    Mr. McAleenan. Absolutely. So on the targeting and analysis 
side, with this committee's support, we have made significant 
advances on the analytics for evaluating risk. The key area we 
are continuing to develop is how to interface our low-side 
information, our unclassified information with classified data 
to get a broader picture on threats. That will be a continued 
effort, so doing well on the unclassified side, more effort on 
the high side.
    With our trade environment, the Automated Commercial 
Environment is making tremendous progress. We are working to 
get everybody into the single window by the end of this 
calendar year. That core technology is near completion and 
going well.
    On the border security side, I think we have got the right 
plan on surveillance with the integrated fixed towers, with the 
mobile surveillance capabilities. We need to keep implementing 
it. The next frontier and challenge is tunnels, which we would 
like to restart in 2017 with your support after our pilot 
efforts with S&T.
    Biometrics, entry/exit, the pilots we are doing, the 
ability to do iris, to do better facial recognition, biometrics 
``on the move,'' that is going to enable us to get to that exit 
system that we all want to achieve. And the challenges we see 
coming forward are the recapitalization on technology that has 
been hugely valuable to us, nonintrusive inspection, the gamma 
imaging devices, the radiation detection portal monitors. That 
is going to be a challenge in the years ahead to sustain the 
capability, and we are looking for ways to do it cheaply, to 
extend life, and to handle that mission.
    Senator Hoeven. Senator Shaheen.
    Senator Shaheen. Assistant Director Ragsdale, ICE has 
created a number of anti-trafficking coordination teams at 
locations around the country. Unfortunately, no team has been 
created on the East Coast north of Atlanta. And I know that we 
put in some language for you to study and report back to us on 
the feasibility of creating additional teams. Obviously, this 
is an issue that we have a great deal of concern about in the 
Northeast because trafficking is a very big issue. So I wonder 
if you could tell us what the status of the study is and when 
we should expect it and if it is going to make any 
recommendations that might suggest that we have reason to 
believe that we would get some additional resources to help us 
with this issue.
    Mr. Ragsdale. So thank you for that question. I mean, human 
smuggling is one of the, you know, the crimes that calls out 
across every person who, you know, is acquainted with just the 
violence and the treatment of another human being as something 
that certainly requires our great attention. You know, we have 
worked both within in DHS, with the Blue Campaign, our own 
internal footprint working with the Department of Justice (DOJ) 
and their agencies to make sure that the enforcement of human 
trafficking laws make sense.
    You know, I know we are looking at teams in the Northeast. 
We will obviously work with our partners in the U.S. Attorney's 
Office to make sure that we have resources in the right place. 
So I will get back to your staff with a recommendation on what 
we see in the Northeast. But our office in Boston, our office 
in New York, which covers--in New Jersey I should say and 
Philadelphia for the entire Northeast--covers human trafficking 
as one of their critical components.
    Every major sporting event, you know, those types of things 
where we see increased demand for vulnerable people, we are 
bringing our investigative capabilities to bear.
    Senator Shaheen. And so is there actually a study underway 
based on what language that we put in that we should expect to 
see at some point?
    Mr. Ragsdale. Yes.
    Senator Shaheen. Do we know when?
    Mr. Ragsdale. I will have to get back to you on the when.
    [The information follows:]

    The Department of Homeland Security expects to provide to the 
Congress a report on the feasibility and advisability of creating 
additional anti-trafficking coordination teams, particularly in the 
northeast region, by the end of May 2016.

    Senator Shaheen. Okay. Thank you. I appreciate that.

             COMBATING TRANSNATIONAL CRIMINAL ORGANIZATIONS

    I want to go back to my initial comments in my opening 
statement about the challenge that States throughout the 
country are facing with respect to the heroin crisis. And it 
has really been driven in large part in much of the country, I 
think, by the addition of opioids, which have turned out to be 
very, very addictive, and--at least what we are seeing in New 
Hampshire--is that people get addicted to opioids and then they 
switch to heroin because it is cheaper and easier to get. And 
what we have seen in 2014 is 47,000 Americans died from opiod 
and heroin overdoses.
    As I look at the ICE efforts to address this, I see that in 
2015 you seized about 7,500 pounds of heroin and so far this 
year about 1,600 pounds, which sounds like a lot, but the 
question that I have is if you had more resources, could you do 
better? And in those figures does that include what is seized 
by the Coast Guard as they are doing drug interdiction efforts 
offshore?
    Mr. Ragsdale. Narcotics investigations are still our 
largest investigative discipline at ICE. In fact, it is almost 
25 percent of our investigative hours. So there is no question 
it remains a critical effort. In our strategic plan from 2016 
to 2020, organizations that smuggle heroin, synthetic drugs, 
opioids, meth are absolutely a focus.
    We have opened--in the last 5 years have had 950 
investigations involving organizations that smuggle heroin. In 
that same period we have probably seized about 24,000 pounds of 
heroin. The seizure number is a good-news story, but it also 
demonstrates the volume of heroin that in fact----
    Senator Shaheen. Right.
    Mr. Ragsdale [continuing]. Is out there to seize. We have 
16 what we call our significant case report. These are either 
Organized Crime Drug Enforcement Task Force (OCDETF) targets 
that are agreed-upon by an interagency group to be targets by 
volume of narcotics being moved. In the last 5 years, we have 
dismantled or disrupted in a material way 8 of those 16 
organizations.
    So, you know, we are certainly putting our efforts on the 
heroin problem. You know that the administration has, you know, 
put----
    Senator Shaheen. Right.
    Mr. Ragsdale [continuing]. You know, efforts into both 
supply and demand and that law enforcement is one critical 
piece of that. And any organization that smuggled heroin across 
our border, as well as, again, the TCIUs I mentioned, are also, 
you know, focusing on organizations smuggling heroin as a 
critical piece.
    You know, the law enforcement response and the interagency 
with OCDETF, with the attorney general's task force, we are 
material supporters of those, and we are heavily invested in--I 
cannot say that more agents would not let us do more work, of 
course it would, but I will just note that solving the problem 
probably is a little broader than just law enforcement.
    Senator Shaheen. Do you want to speak to that, too?
    Mr. McAleenan. Yes, briefly. We are really concerned and 
focused on this in our communities as well, and I have a unique 
perspective working for the former Office of National Drug 
Control Policy, a leader in this effort. For CBP it is two main 
pieces: interdiction at the border, which you saw in Laredo 
with our K-9s, with our x-ray equipment, supported by 
targeting.
    I should note that I mentioned that we are making progress, 
in response to the chairman's question, on our sophisticated 
analytic techniques. We are using those against the narcotics 
threat most effectively, both in cargo, as well as passenger 
vehicles. About 30 percent of our seizures of hard narcotics 
and especially heroin are driven by those advances in 
targeting.
    Last year, we had 2,744 kilograms--so not pounds--seized, 
which is up about 70 percent from 5 years ago. So it is a main 
focus for us.
    I agree with Dan's comments on that interdiction is not 
going to get us there alone, and that is why the second piece 
of our effort is support to investigative task forces using our 
targeting and counter network capabilities. The Joint Task 
Force-West that the Secretary established has identified 19 
priority transnational criminal organizations threatening our 
southwest border, and that is where most of the heroin is 
coming on our land border, about 70 percent of it.
    Three of the top five of those 19 and one-third of the 
priority networks are involved in trafficking heroin, and so I 
can tell you we are looking at what investments can make an 
impact. It is in that interagency investigative task force 
model and applying CBP's insight into the data to support 
illuminating those networks, and that is part of what the 40 
additional Targeting Center personnel we have requested in 2017 
would go towards is enhancing our counter network support.
    Senator Shaheen. So there have been a number of news 
reports that have talked about the engagement of ISIS and other 
terrorist groups in drug trafficking and smuggling as part of 
financing their operations. Are we seeing that in the kind of 
analysis that you are talking about?
    Mr. McAleenan. I think we are, and I defer that to Dan as 
well to comment, but I think there is a recent significant 
operation in France with tentacles into multiple nations that 
we Drug Enforcement Administration (DEA)-led but supported by 
CBP's counter network efforts in identifying the members of 
this group. And I can send the information to your team. It was 
very significant and impactful coordinated with funding for 
international terrorism.
    Senator Shaheen. Do you want to comment?
    Mr. Ragsdale. This is probably not the full and appropriate 
place to have this----
    Senator Shaheen. Sure.
    Mr. Ragsdale [continuing]. Discussion. However, what I 
think the lesson is that, whether it is ISIS or any other 
criminal or terrorist organization, they will do whatever they 
can to make money. We have seen smuggling in cultural 
antiquities, smuggling in people, and smuggling in drugs. So we 
certainly can offer a more detailed briefing, but I agree with 
my colleague that, you know, it is only a question of 
dismantling organizations from a global perspective that will 
really bring some, I think, impact here.
    Senator Shaheen. And so you are working with the Justice 
Department, obviously with DEA. Are you also working with our 
military as you are looking at those kinds of networks and 
trying to disrupt those?
    Mr. Ragsdale. So certainly in Central America and I will 
use the term downrange, absolutely. We are also working with 
Department of State's International Narcotics and Law 
Enforcement. They have been a huge help. We would be nowhere 
near where we are in our investigative efforts without their 
help. So it is certainly, again, the full interagency.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Hoeven. All right. I just have a few questions 
here, and then that will take care of questions that I have for 
today. And Senator Shaheen, certainly offer you an opportunity 
for any others that you may have.

                       NATIONAL TARGETING CENTER

    First one relates to the National Targeting Center. It 
looks to me like between $35-$40 million increase for the 
National Targeting Center. Commissioner, if you could, touch on 
why you need that, what we are accomplishing with it, how we 
are doing with the targeting center.
    Mr. McAleenan. Absolutely. So the Targeting Center's 
development from a local phenomenon prior to 9/11 to what it is 
today as an interagency center of excellence supporting 
multiple missions for DHS and our partners in the 
counterterrorism, counternarcotics and intelligence space has 
been, I think, a real success story in the Department of 
Homeland Security.
    And it is built on the unique aspects of CBP. Because of 
our position at the border, our regulatory abilities, we have 
information on the global travel cycle and global supply chain 
that other agencies simply do not have access to. And we have 
the authorities that we can wield in support of the analysis of 
that data to inspect cargo, to stop, detain, and question 
individuals without a warrant. So it is a unique combination.
    Additionally, we have been working on risk management 
concepts really for 225 years, since the founding, and trying 
to pick out those people and cargo shipments that might present 
a risk as they are crossing our border.
    And then fourth, it is the power of the partnerships. 
Because CBP does not have investigators that are making the 
arrest and supporting prosecutions, we are very neutral. We 
have our number one investigative partner in HSI, but we are 
able to support FBI's counterterrorism mission, DEA's counter 
drug mission, Treasury's seizure of assets using the 
information and the counter network analysis ability that we 
have. And we support Coast Guard in its passenger analysis, 
support Department of State in its visa work, support TSA in 
its aviation security. So these are all capabilities that have 
been built around those four fundamental aspects, the data, the 
authorities, the risk analysis, and the partnerships.
    So what these additional officers are going to enable is we 
have worked very hard, especially post the Christmas Day bomber 
in 2009 to really move our threat analysis prior to departure 
toward the United States for passengers. We had already done 
that for cargo in the aftermath of 9/11. That has created 
significant transactional work to process potential matches, to 
analyze rules hits, to make judgments on whether a traveler 
might present a risk before they board. So that has kind of 
taken the full capacity of the National Targeting Center (NTC).
    What we would like to do using the increased analytical 
capability of our systems that you have supported is augment 
with additional officers to go after these networks. Heroin 
smuggling, trade violations, as well as our priority that we 
are fully resources on foreign terrorist fighters.
    So it is really extending a capability that is unique in 
the interagency, that is proven dramatically effective, and has 
supported many of our partners, primarily starting with HSI and 
their investment with agents at our National Targeting Center.

                             THE ZIKA VIRUS

    Senator Hoeven. The inspector general issued a report in 
January that was critical of DHS, as well as HHS, in regard to 
implementation of the Ebola screening process. With the Zika 
virus, what have you done to make sure that we do not have some 
of those same problems?
    Mr. McAleenan. Absolutely. We will have to rigorously watch 
that. You know, I reviewed the report carefully and was 
appreciative of IG's noting that we responded very quickly to a 
new crisis. And actually, some of the concerns they cited were 
actually reviewed before the travelers were released. We 
managed to screen 42,000 travelers at ports of entry around the 
country focused on five priority airports.
    Ebola is a disease where the Centers for Disease Control 
(CDC) advised us that we had an opportunity to potentially 
identify affected people during their border crossing. If they 
were symptomatic, if they had a high temperature, we could 
identify them. Additionally, the key value there was tracking 
folks from Ebola-affected countries and the addresses and 
destinations they were going to. If they became infected, that 
would support disease analysis by CDC.
    For Zika we have gotten different advice. Given the lack of 
symptoms that 80 percent of people infected demonstrate, border 
screening itself is not supported by the symptomatology of the 
disease. So what we are looking at is ensuring that around our 
facilities where we detain people that we have good mosquito 
suppression capabilities and that we are giving the right 
information to our personnel that work in Puerto Rico and the 
U.S. Virgin Islands and other places where there has been Zika 
transmission. And certainly, if we are called on to support our 
health and human services partners, in a response if the 
disease changes its manifestations, we would absolutely jump on 
that.

                            HONEY PRODUCERS

    Senator Hoeven. Okay. Last question I have is in regard to 
the honey producers. Do you have an inventory of what is owed, 
what has been collected, and what they can anticipate in terms 
of distributions and when?
    Mr. McAleenan. Yes. We are tracking all the cases that have 
been settled to date, as well as those outstanding and doing 
the calculations of both the fundamental principle and the 
interest. That has been the key advance in the change in the 
statute. So there is a team in our Office of Trade that is 
working those issues.
    Additionally, Chairman, you raised the changes in the new 
customs bill if you will that is shorthand for the Trade 
Facilitation and Trade Enforcement Act, a lot of focus on the 
threat of dumping to our domestic honey producers, and we are 
tracking closely the need to have the right personnel dedicated 
to that mission, the database of the individual characteristics 
of honey depending on the country of origin so that we can have 
our labs and scientific services work with the FDA to make sure 
we are tracking that effectively. And then we owe you a report, 
I believe, in less than 6 months now on how we have responded 
to the guidance in that bill, and we are working that 
aggressively today.
    Senator Hoeven. Okay. What have I not asked you, 
Commissioner McAleenan, or you, Deputy Ragsdale, that you would 
like to bring up at this hearing? Is there anything you want to 
make sure we cover that we have not?

                               ATTRITION

    Mr. Ragsdale. I would thank you just for your support and 
just, you know, to note that the attrition piece is really a 
challenge. I will just add one more exclamation point on that. 
The overtime issue for our enforcement and removal folks is 
going to be a challenge until we get a change of legislation, 
and I just feel that it is worth noting how important that is 
for our workforce in terms of morale and retention. So I 
appreciate--you have already asked the question, but I will 
just take this opportunity to put that one more exclamation 
point on it. Thank you.

                INTERNATIONAL ARRIVALS CUSTOMER SERVICE

    Senator Hoeven. I share your concern. Anything else?
    Mr. McAleenan. My staff might question my sanity for taking 
you up on that opportunity, Mr. Chairman, but I think there is 
one area we have not talked about. It is our transformation and 
our processes to welcome travelers at our international 
airports. It has been really a hallmark of CBP's efforts the 
last several years.
    In the last 3 years, traffic has gone up almost 11 percent 
at our major international gateways, and our wait times have 
gone down, over 15 percent, with enhanced security. And that 
has been a function of technology and expanding global entry 
using automated passport control kiosks, using mobile passport 
control, and really partnering with the private sector with the 
authorities this committee has given us to do reimbursable 
services agreements so we can have targeted CBP officers 
exactly when the airports need it to provide better service.
    So the results are supported in the traveler surveys. In 
2012, only 63 percent of travelers felt like they waited less 
than 15 minutes. Now, that number is 88 percent. Ninety-three 
percent felt welcomed because they enjoy interacting with the 
technology, being part of the process. And so I think that your 
committee's support has really pushed us forward in this area, 
and it has been an important success for the Department and 
CBP.
    Senator Hoeven. I have seen that as a traveler. And then 
when we were down on the border last year, we went to the 
international airport in Houston, and the technology you had to 
process international travelers, as well as just the systems 
and the personnel, was impressive.
    And so, I mean, I think it gives us a glimpse of what we 
can do with the right mix of people, technology and process to 
get this right. One way to go but a good example there of 
something you have done very well. I appreciate it.
    Senator.
    Senator Shaheen. I just have one last issue that I want to 
raise because this came up at a hearing last month before the 
Senate Special Committee on Aging. And one of the things that I 
have tried to do over my time as a Senator is to help educate 
particularly seniors in New Hampshire about some of the scams 
that are out there that try and defraud seniors because they 
are very giving and want to be helpful when someone calls and 
says this is a problem.
    And I know that one of these scams has U.S. citizens who 
are unwittingly coerced to act as drug mules. And so I just 
wonder, Mr. Ragsdale, if you could talk about some of the 
efforts that you have underway to break up those kinds of scams 
and to educate people about what is out there?
    Mr. Ragsdale. Thank you, Senator. A couple of thoughts: 
First, you know, we have worked with the Committee on Aging and 
our interagency partners on sort of the telemarketing fraud. We 
know that it is very easy to fish for information over the 
phone. There are certain demographics that are more likely to 
give information remotely. So we have worked--our Cyber Crimes 
Center that we have recently expanded to support what I will 
say is an outreach effort. You know, we have done that both in 
terms of children being safe online but we have also expanded 
that to seniors.
    You know, we have worked with our international attache 
offices in the Caribbean and with our domestic office around 
the United States to push some of that message, you know, being 
safe online, being safe when folks call and having sort of a 
smart behavior is part of our outreach campaign. And we will 
just continue to do that.
    And likewise, we will also continue, you know, the 
financial investigations that, you know, is our second-largest 
investigative area. It is a big part. And, you know, protecting 
our vulnerable senior citizens and children online and sort of 
over the phone is absolutely a priority for us.
    Senator Shaheen. Well, I would applaud those efforts. I 
think those are the kinds of efforts that the agency does that 
the public does not often recognize, and so it is important to 
provide that kind of protection. So thank you all.
    Mr. Ragsdale. Thanks.
    Senator Shaheen. And thank you both very much for your 
testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hoeven. All right. With that, that will conclude 
our hearing today. And again, I want to thank both of you for 
being here today and for the important work that you and 
everyone at your agency does.
    The hearing record will remain open for 2 weeks from today. 
Senators may submit written questions for the record. We ask 
that witnesses respond to them within a reasonable length of 
time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
          Questions Submitted to Kevin K. McAleenan (CBP) and 
                         Daniel Ragsdale (ICE)
               Questions Submitted by Senator John Hoeven
              removals and immigration enforcement metrics
    Question. The number of removals of illegal aliens is one measure 
of immigration enforcement. ICE has been removing fewer and fewer 
aliens each year under this Administration. From fiscal year 2014 to 
2015, total removals dropped by 80,530. Comparing the same period, ICE 
removed 37,560 fewer criminals. In terms of effectiveness, it is 
unclear what to measure removals against. Academics estimate an illegal 
population of roughly 11 million in the United States. We know ICE 
isn't targeting the entire illegal population, so what is the size of 
the population ICE is targeting--by estimated number and by priority 
category?
    Answer. U.S. Immigration and Customs Enforcement (ICE) has 
prioritized its resources on the identification and removal of threats 
to national security, border security, and public safety, as outlined 
in Secretary Johnson's November 20, 2014 memorandum titled Policies for 
the Apprehension, Detention, and Removal of Undocumented Immigrants.
    The drop in the total number of ICE removals stems from several 
factors. Historically, a significant number of ICE's removals have been 
based on U.S. Customs and Border Protection's border apprehensions. 
However, apprehensions--a key measure of illegal border crossings--
along the Southwest border are at their lowest levels since the early 
1970s. Specifically, the total number of such apprehensions dropped by 
479,371 to 331,333 between fiscal year 2014 and fiscal year 2015.
    Additionally, the enactment of numerous State statutes and local 
ordinances reducing and/or preventing cooperation with ICE, along with 
Federal court decisions that created liability concerns for cooperating 
law enforcement agencies, led an increasing number of jurisdictions to 
decline to honor immigration detainers in fiscal year 2015.
    The Department's clearer and more refined civil immigration 
enforcement priorities, which ICE began implementing in fiscal year 
2015, placed increased emphasis and focus on the removal of convicted 
felons and other public safety threats over non-criminals. Over the 
course of fiscal year 2015, ICE has improved its ability to target 
individuals who threaten public safety and national security, as 
demonstrated by the fact that 98 percent of individuals ICE removed met 
ICE's civil immigration enforcement priorities.
    The Office of Immigration Statistics produces an annual report 
which attempts to quantify the undocumented population in the United 
States. Please find attached the latest, publicly available report.
                   overstay tracking and enforcement
    Question. The Department finally submitted its first visa overstay 
report to Congress after many years overdue. It tells part of the 
story. However, the Department has the challenge of figuring out who is 
still here legally by checking across a number of different biographic 
systems.
    What are the barriers to status information moving seamlessly 
across DHS's immigration benefit and enforcement information systems? 
And what is DHS doing to connect these systems or routinely share 
information to reveal status in individual cases and in the aggregate? 
As an example, ICE should know when a student visa holder has adjusted 
status with USCIS. As another example, the Arrival Departure 
Information System should be able to distinguish potential overstays 
from those who have adjusted status and remain legally in the United 
States.
    Answer. U.S. Immigration and Customs Enforcement (ICE) Homeland 
Security Investigations' Counterterrorism and Criminal Exploitation 
Unit (CTCEU) uses LeadTrac, a lead and case management database, to 
aggregate information on foreign nationals who are suspected of having 
violated their immigration status, overstayed their visas, and/or could 
pose a risk to the homeland. LeadTrac initiates leads through the 
Automated Targeting System-Passenger (ATS-P) import, to include 
information from Enforcement Integrated Database, Electronic System for 
Travel Authorization, I-94, Advance Passenger Information System, 
Central Index System, Consular Consolidated Database, Student and 
Exchange Visitor Information System (SEVIS), and others. Once potential 
leads are in the system, CTCEU collects information on subjects through 
batch vetting and through manual vetting conducted by an analyst. CTCEU 
analysts query various Department of Homeland Security (DHS) databases, 
commercial databases, and publicly available information obtained from 
social media and other Internet sites and document their findings in 
LeadTrac. CTCEU batch vets the leads in its database through the U.S. 
Citizenship and Immigration Services' (USCIS) Computer Linked 
Application Information Management System (CLAIMS) to identify 
individuals who have pending applications, have adjusted status, or who 
have been denied a benefit. Batch vetting through CLAIMS is currently 
triggered via manual action on a weekly basis. LeadTrac also has 
connectivity with ATS-P on a daily basis through web services and 
receives travel information to identify departures and subsequent 
arrivals as well as notifications that an individual has a National 
Crime Information Center record. LeadTrac notifies ATS-P when it has 
closed a lead and provides a reason for the closure. LeadTrac also 
notifies the Arrival and Departure Information System when a lead has 
been closed for a SEVIS or CLAIMS reason and will soon advise when 
LeadTrac has identified a deceased individual or has documented an 
arrest. LeadTrac exports lookouts to TECS so stakeholders can be aware 
of possible SEVIS violators as well as other overstays who do not meet 
CTCEU criteria. LeadTrac also provides information to ICE Enforcement 
and Removal Operations on subjects who do not meet CTCEU criteria but 
continues to monitor those leads for benefits and applications and 
departure or subsequent arrival information. CTCEU increasingly strives 
to automate information to eliminate the need for manual interaction, 
continuously works with its partners to identify data fields to augment 
LeadTrac information, and works to share that information with 
requesting partners.
    The Arrival Departure Information System (ADIS) was originally 
designed to match arrivals to departures for travelers subject to the 
Visa Waiver Program (VWP). Since its inception in 2002, its 
functionality has been expanded to include identifying all non-
immigrant overstays, not just those pertaining to the VWP. One barrier 
to ADIS moving information seamlessly across the DHS mission is that 
most systems containing immigration and travel data are event-centric, 
and ADIS must be person-centric to accomplish its status mission (i.e., 
for ADIS to accurately and automatically provide status information, it 
must match individual events from multiple sources to identify status 
of each traveler in question).
    To connect systems or otherwise share data, ADIS has incoming and 
outgoing connections to multiple databases that are needed to 
accomplish its mission and the missions of its stakeholders. CBP and 
its partners across DHS continually evaluate and update the interfaces 
between ADIS and other systems to improve the quality and timeliness of 
the data. For example, in May 2016, ICE and CBP are deploying an 
updated interface between the Student and Exchange Visitor Information 
System (SEVIS) and both the Automated Targeting System-Passenger (ATS-
P) and ADIS. This will provide more information on a daily basis 
between systems, including abilities to better determine status. This 
work will also benefit enforcement actions taken by ICE and analysis 
performed by the Intelligence Community.
    More generally, information does not move seamlessly across DHS 
data systems because many of the Department's most important 
immigration data systems are products of DHS legacy organizations such 
as the U.S. Customs Service and the Immigration and Naturalization 
Service, and the systems were not designed and have not evolved to 
facilitate enterprise-wide data sharing or data analytics. As you know, 
DHS has recently undertaken a department-wide immigration data 
integration initiative, which aims to more comprehensively make this 
type of connection across different immigration data systems.
    Though related to the overstay mission, identification of lawful 
immigrant status is provided by USCIS, and CBP defers to that component 
for further details in this area.
    Question. Relatedly, when checks are done of immigration benefit 
applicants does USCIS automatically know when such an applicant is 
being investigated by ICE for national security concerns? If not, when 
will that be available and how?
    Answer. When adjudicating an immigration benefit, USCIS queries 
TECS to identify possible derogatory information regarding an 
applicant. ICE encapsulates this information in the form of TECS 
subject records/lookouts on individuals who are potential threats to 
national security or public safety as outlined in Secretary Johnson's 
November 20, 2014 memorandum, Policies for the Apprehension, Detention, 
and Removal of Undocumented Immigrants. In addition, TECS subject 
records/lookouts are generated on student and exchange visitors once 
they have been identified as being out of status. Individuals that have 
been verified as visa overstays will also have TECS subject records/
lookouts created. The TECS subject records/lookouts alert ICE field 
offices of possible overstay violations which could warrant further 
investigation. Due to the necessity of maintaining the integrity of the 
immigration process, it is imperative that ICE continue to work closely 
with partnering agencies (USCIS, U.S. Customs and Border Protection, 
etc.) in order to increase the effectiveness of information sharing.
    Question. What system changes are necessary and when will DHS be 
able to track individual immigrants and non-immigrants through the 
immigration benefits and immigration enforcement lifecycles?
    Answer. ICE completed a study of the Enforcement Integrated 
Database (EID) in January 2016, including peripheral applications, and 
identified specific capability gaps, which have been shared with the 
committee. ICE has initiated several short-term projects that are 
designed to address some of the capability gaps in fiscal years 2016 
and 2017. To address full lifecycle reporting, ICE must fundamentally 
change the EID, which supports over 24,000 users globally and maintains 
data for 22 applications.
    CBP is engaged in data sharing activities and system upgrades that 
facilitate the capability to track individual immigrants and non-
immigrants through the immigration benefits and immigration enforcement 
lifecycles. Many of these capabilities are operational or in the 
process of becoming operational. Since the language in this question 
covers a wide variety of different missions associated with 
verification and identification of immigrants/non-immigrants, many 
systems within CBP and DHS could fall within the scope of the question 
and are in the process of deploying enhanced capabilities. In the prior 
answer provided, the Arrival and Departure Information System (ADIS) 
was cited for deploying enhanced capabilities for identifying overstays 
for non-immigrants. If more information of this nature is of interest, 
CBP can provide specific timelines on specific systems that are 
supporting the operations associated with immigrants and non-
immigrants. For example, CBP's ADIS system will deploy capabilities in 
May and June 2016 to facilitate the identification of expanded non-
immigrant populations for ICE enforcement and annual reporting of 
overstay statistics for the fiscal year 2016 Entry/Exit Overstay 
Report.
    In addition, at a headquarters level, the Office of Immigration 
Statistics (OIS) within the Office of Policy has developed software to 
link individual alien records across key enforcement and benefits 
datasets in order to track individuals through the immigration benefits 
and enforcement lifecycles. Current data architecture and IT 
infrastructure limit OIS's lifecycle analysis to historical data 
(fiscal year 2009-fiscal year 2014); but as part of the Department's 
immigration integration initiative OIS will develop the capacity to 
produce near real-time reporting on the immigration enforcement and 
benefits lifecycles.
    Question. How will enforcement and removal officers handle 
individuals who are found to have overstayed their visas, or are 
suspected of overstaying their visas, if they do not meet the 
Secretary's four priorities for immigration enforcement? By policy, are 
officers able to initiate enforcement action on individuals who do not 
meet the four priorities?
    Answer. While ICE resources should be dedicated, to the greatest 
degree possible, to the removal of aliens that fall within the priority 
categories enumerated in Secretary Johnson's November 20, 2014 
memorandum, Policies for the Apprehension, Detention, and Removal of 
Undocumented Immigrants, ICE officers may pursue removal of aliens who 
do not meet those priorities if an ICE Field Office Director determines 
that their removal would serve an important Federal interest. The 
memorandum includes as Priority 2(d) ``Aliens who in the judgement of 
an ICE Field Office Director, USCIS District Director, or USCIS Service 
Center Director, has significantly abused the visa or visa waiver 
programs.'' Some individuals who have overstayed their period of 
admission may also fall within this priority. In cases where 
individuals who are found to have overstayed their period of admission, 
or are suspected of overstaying and fall outside of the priority 
categories, ICE officers may pursue removal of these aliens if an ICE 
Field Office Director determines that their removal would serve an 
important Federal interest.
                    big data tools and coordination
    Question. CBP collects a wealth of data from travelers and the 
trade in order to facilitate the legitimate movement of people and 
goods. CBP and ICE are both developing and using ``big data'' tools to 
evaluate this data in order to prevent transnational criminal 
organizations from harming U.S. people or companies.
    ICE and CBP have both entered into contracts to use ``big data'' 
tools to analyze the data CBP collects from traders and travelers, with 
the goal of stopping criminal activity. Are ICE and CBP working 
together to develop a tool both can use to identify potentially 
criminal patterns of behavior, develop investigations, and achieve some 
economies of scale? Please describe these efforts.
    Answer. [Law enforcement sensitive information--start.] U.S. 
Immigration and Customs Enforcement (ICE) and U.S. Customs and Border 
Protection (CBP) are actively leveraging innovative techniques and 
tools, including big data analytics, in executing the mission to 
protect the Homeland. Each has a unique and complementary mission 
within the Homeland Security border-enforcement enterprise. 
Accordingly, each agency utilizes ``big data'' in a manner to amplify 
its respective capabilities. CBP operations are border-centric whereby 
their enforcement efforts are specifically focused toward activities 
that result in interdictions. ICE Homeland Security Investigations 
(HSI), as a transnational investigative agency enforcing the Nation's 
customs and immigration laws, also focuses its efforts on securing the 
integrity of the border. ICE HSI's mandate is to target transnational 
criminal groups and networks that exploit U.S. borders, regardless of 
whether that illicit activity occurs at or away from the border. ICE 
HSI has a wider focus on all trends and anomalies associated with 
immigration and trade data to identify illicit networks and 
organizations regardless of whether it results in interdictions or 
contributes to the development of investigations. An immense amount of 
data analytics has the potential to provide better targeting 
capabilities. ICE HSI and CBP are partnering to share information, 
leverage capabilities, and adopt best practices in integrating new 
technology with existing programs.
    For instance, ICE HSI is the primary export enforcement agency 
within the U.S. Government and conducts various outreach efforts. 
[Edited text.] The information is provided to ICE HSI field 
investigators to inform them [edited text] investigations. While the 
big data analytic tools [edited text] ICE HSI's [edited text] and 
contribute to joint efforts with CBP to secure the border. [Law 
enforcement sensitive information--end.]
    CBP and ICE closely collaborate in the utilization of ``big data'' 
tools and analysis to develop joint capabilities and achieve cost 
efficiencies whenever possible. For example, CBP big data services are 
currently available to more than 1,000 ICE analysts through the 
Analytical Framework for Intelligence (AFI) big data tool as of 
February 2016 and CBP is working to serve other DHS components with the 
AFI tool. In addition, CBP and ICE regularly meet to identify data sets 
that are valuable in the ``big data'' environment to both CBP and ICE 
and to incorporate those data sets into shared tools. While CBP and ICE 
collaborate on big data efforts whenever possible, there are times 
where tools must be developed independently due to differences in the 
ICE and CBP missions.
    Question. What metrics are used to measure the success of CBP's 
counter network activities?
    Answer. U.S. Customs and Border Protection's (CBP) Counter Network 
Division (CND) was established in October 2015 to leverage CBP's unique 
authorities, data, competencies, and partnerships to mitigate network-
centric threats to the U.S. homeland and U.S. border security. CND 
enables a networked community of domestic and international partners 
that use the insights derived from CBP's security activities to inform, 
enhance, and support operational and intelligence activities. The CND 
illuminates unique insights about illicit networks through a 
combination of data analysis and investigations stemming from CBP and 
partner data and interaction. Derived from these insights, CBP and its 
partners can develop informed and focused operational activities to 
disrupt and dismantle world-wide networks that support terrorism and 
transnational organized crime. The CND accomplishes this mission 
through the use of its expert insight into trade, travel, and border 
security as well as leveraging CBPs unique data collection set at the 
center of the international trade and travel lifecycles in order to 
expose illicit network environments.
    Although CND is still maturing, its activities have already 
resulted in mitigation and disruption of transnational terrorist or 
otherwise illicit networks. Successful outcomes to date include 
significant seizures, arrests, and disrupted illicit activities. As the 
CND interacts with the partner agencies and stakeholders, a great deal 
of the CND success will be measured by the actionable intelligence and 
information provided to its partners that allow for threat mitigation, 
threat disruption, or displacement. CND also looks beyond traditional 
quantitative metrics like arrests and seizures to further understand 
the qualitative impact of its activities. To do this, CND analyzes 
shifts in trends in the larger environment supporting our target 
networks. By comparing these shifts to specific interventions, the CND 
identifies correlations between CND and partner agency mitigation 
actions and the illicit networks' ability to conduct operations. Such 
trends include:
  --Trends demonstrating the reduced financial and operational capacity 
        of target networks;
  --Trends demonstrating target networks' inability to operate in 
        spaces they previously controlled or excelled in;
  --Trends demonstrating target networks' frustration with our adjusted 
        tactics (changes in remuneration for employees/followers, 
        punishments, etc.); and/or
  --Trends demonstrating disruption of access to the U.S. homeland.
    Further details on CND performance can be provided in a separate 
briefing.
              executive action policies and border patrol
    Question. Please provide clarification of the Department's policies 
when it comes to illegal aliens encountered by the Border Patrol.
    What limitations are placed on Border Patrol agents regarding the 
questions they can ask an individual to determine whether the 
individual is lawfully in the United States?
    Answer. Border Patrol has no policies that limit the questions that 
can be asked in order to enforce the immigration laws and regulations.
    A Border Patrol agent's legal enforcement authority is derived, in 
part, from sections 235 and 287 of the Immigration and Nationality Act, 
organized under title 8 of the United States Code (U.S.C.) sections 
1225 and 1357 respectively, with the implementing regulations at title 
8 Code of Federal Regulations (CFR) parts 235 and 287.
    Under section 287 of the INA, Border Patrol agents have authority 
without warrant:
  --``To interrogate any alien or person believed to be an alien as to 
        his right to be or remain in the United States,'' 8 U.S.C. 
        1357(a)(1);
  --``To administer oaths to any person under penalty of perjury, and 
        take and consider evidence concerning the privilege of any 
        person to enter, reenter, pass through, or reside in the United 
        States, or concerning any matter which is material or relevant 
        to the enforcement of the INA;'' ``8 U.S.C. 1357] (b);
  --``To Search persons, and the personal effects in possession of any 
        person seeking admission to the United States if the agent has 
        reasonable cause to suspect that grounds may exist for denial 
        of admission that would be disclosed by such search [8 U.S.C. 
        1357] (c);''
    Section 235 of the INA gives Border Patrol agents authority ``to 
administer oaths'' and elicit from any applicant for admission 
``regarding the purposes and intentions of the applicant in seeking 
admission . . .'' and to inspect ``[a]ll aliens . . . who are 
applicants for admission or otherwise seeking admission or readmission 
to or transit through the United States . . . .'' 8 U.S.C. 1225(a)(3), 
(a)(5), (d).
    USBP follows the immigration enforcement priorities set forth in 
Secretary Johnson's November 2014 Memorandum on ``DHS' Policies for the 
Apprehension, Detention and Removal of Undocumented Immigrants.''
    Question. What procedures must Border Patrol agents follow if an 
individual claims to have been in the United States since before 
January 2014?
    Answer. Individuals who claim that they have been physically 
present in the United States continuously since January 1, 2014, are 
required to establish their claim to the satisfaction of the Border 
Patrol agent. Aliens who do not, should be prioritized for removal 
unless they qualify for asylum or another form of relief under our 
laws, or unless in the judgment of senior leadership, there are factors 
indicating that the alien is not a threat to national security, border 
security, or public safety and should not therefore be an enforcement 
priority. Aliens who do establish their claim to the satisfaction of 
the Border Patrol agent are further evaluated to determine if any other 
enforcement priority categories apply, or if there are other factors 
known to the U.S. Border Patrol that would influence the decision to 
exercise prosecutorial discretion.
    Question. Are the policies and procedures different at the border 
as opposed to at checkpoints? If so, please detail how they are 
different.
    Answer. No, immigration enforcement at the border and at 
checkpoints is governed by the priorities set forth in Secretary 
Johnson's November 2014 Memorandum on ``DHS' Policies for the 
Apprehension, Detention and Removal of Undocumented Immigrants.'' 
According to the memorandum ``Border Patrol Traffic Checkpoint 
Policy,'' December 2003, it is the policy of CBP to use U.S. Border 
Patrol checkpoints to restrict the routes of egress from the border 
area where appropriate and thereby create deterrence to the initial 
illegal entry. Checkpoints greatly enhance the USBP's ability to carry 
out the mission of securing the Nation's border against terrorists, 
smugglers of weapons of terrorism, other contraband, and illegal 
aliens. Checkpoints are an integral part of the border enforcement 
strategy and provide a level of authority that is not replicated in any 
other enforcement toll outside the ports of entry.
    In Martinez v. Fuerte, the U.S. Supreme Court ruled that internal 
checkpoints were consistent with the Fourth Amendment and not a 
violation. The court also said that it would be impracticable for 
agents to seek warrants for every vehicle searched and that to do so 
would eliminate any deterrent towards smuggling and illegal 
immigration. The court felt that any intrusion to motorists was minimal 
and that the government and public interest outweighed the 
constitutional rights of the individual.
                              focus ports
    Question. We understand that some ports of entry are being 
designated as ``Focus Ports,'' where a designated amount of staffing 
will be maintained at those ports for training purposes. Describe this 
new approach and tell us when will this take effect?
    Answer. The Office of Field Operations has identified six ``focus 
ports'' that will receive the majority of new CBP Officers (CBPOs) and 
CBP Agriculture Specialists (CBPASs) to begin their careers. The focus 
ports are as follows: John F. Kennedy Airport (JFK), Miami 
International Airport, and the land ports of Laredo, Nogales, San 
Ysidro, and Calexico. Focus ports are locations with a high volume of 
work, varied enforcement actions, and diverse operations, which will 
provide an ideal training environment for new hires. Additionally, 
these ports will include enhanced training programs for new CBPOs and 
CBPAs to build a solid, well-rounded foundational experience in their 
given profession.
    In addition to foundational and training benefits, focus ports will 
address mission priorities and staffing requirements by providing a 
steady stream of new CBPOs and CBPASs. This consistent staffing will 
further enhance security and facilitate travel by having more CBPOs and 
CBPASs at some of the Nation's busiest ports.
    Because of the staffing challenges, the Office of Field Operations 
has not been able to fully implement this concept beyond funneling the 
majority of new hires to these designated ports. With JFK just 
reaching, and exceeding, its authorized staffing levels, it is expected 
that within the coming months, as trainees return from the academy, the 
enhanced training programs will be rolled out.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                   u.s. canada preclearance agreement
    Question. My question this week is timely because it coincides with 
the visit to the United States of Canadian Prime Minister Justin 
Trudeau. About a year ago, the United States entered into an agreement 
with the Government of Canada regarding customs, immigration and 
agricultural preclearance in an effort to speed cross border movements 
while ensuring that each nation's border protection requirements are 
met. Last week I joined with Senator Leahy to introduce S. 2612 which 
will enable the full implementation of this agreement. The benefits for 
Alaska tourism are obvious--implementation of the agreement would allow 
for full preclearance of cruise passengers departing Vancouver meaning 
more time and more fun during their shore experiences in southeast 
Alaska.
    Aside from the benefits for Alaska, I understand that 
implementation of the Preclearance Agreement is good for U.S. 
communities across the Northern border. Would you explain why this is 
the case?
    Answer. By taking a perimeter approach to security we improve the 
efficiency of legitimate travel and trade at the border and further 
enhance U.S. security by performing inspections and examinations before 
travelers enter the country. This approach allows us to increase 
capacity and decrease congestion at our busiest border crossings 
allowing travelers to spend more time in the community thereby 
increasing their positive economic impact.
    Question. Would you explain why enactment of S. 2612 is important 
to the implementation of the agreement?
    Answer. U.S. legislation is needed to provide criminal 
extraterritorial jurisdiction over U.S. Government personnel stationed 
in a foreign country pursuant to a treaty or executive agreement and, 
as applied to the context of preclearance in Canada, to allow the 
United States to avail itself of the protections and accountabilities 
provisions of the new United States-Canada Land, Rail, Marine, and Air 
Transport Preclearance Agreement (LRMA). Without the passage of this 
legislation, along with similar implementing legislation in Canada, the 
LRMA will not enter into force.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                            entry wait times
    Question. I want to first applaud the department/agency for its 
efforts to reduce wait times at air ports of entry in 2015. The 
implementation of automated technologies, combined with enhanced 
partnerships at the local level, led to significant improvements at 
several airports that had previously experienced long wait times.
    While I know most locations saw some kind of decrease (airport wait 
times decreased by 3.5 percent, or 19.9 minutes, from fiscal year 2014-
fiscal year 2015 (based on the national average wait time) after 
experiencing more than a 5-percent increase from fiscal year 2012 to 
fiscal year 2013), did any of the top 20 airports experience an 
increase or no change in wait times over the 2015 levels? If so, which 
airports and was there a specific reason?
    Answer. CBP creates an annual product that includes Annual Average 
Wait Times. Based on that product, the following airports showed an 
increase in average wait times from fiscal year 2014 to fiscal year 
2015: Atlanta Hartsfield-Jackson International Airport, Baltimore/
Washington International Airport, Honolulu International Airport, San 
Juan Luis Munoz Marin International Airport, Miami International 
Airport, and New York John F. Kennedy International Airport.
    Of these airports the average wait times at Atlanta Hartsfield-
Jackson International Airport, Baltimore-Washington International 
Airport and San Juan Luis Munoz Marin International Airport are all 
well below the national average and less than 12 minutes. Atlanta 
Hartsfield-Jackson International Airport, Baltimore/Washington 
International Airport can be explained, in part, by an increase in 
passenger volume over the same time period of almost 3 percent and 38 
percent respectively. At San Juan Luis Munoz Marin International 
Airport the volume of passengers decreased by 3 percent, however San 
Juan does not use Automated Passport Control kiosks.
    The change in average wait times at Miami International Airport, 
and New York John F. Kennedy International Airport was close to a 1.4-
minute increase (a 6.4-percent increase at John F. Kennedy and a 5.6-
percent increase at Miami) and can be explained, in part, by an 
increase in passenger volume over the same time period of 3 and 4 
percent respectively.
    Honolulu International Airport has an almost 29-percent increase in 
average wait times with a volume increase of less than 1 percent. 
Global Entry travelers make up only 0.56 percent of total travelers to 
the airport. Honolulu International Airport also did not have Automated 
Passport Control kiosks during fiscal year 2015 (although the airport 
does now).
    Question. Also, can you highlight the role of Automated Passport 
Controls (APCs) in the 2015 improvements and discuss the possible 
impacts of a large scale Mobile Passport Control (MPC) roll out in 
2016? What domestic airports would you expect to deploy MPCs in fiscal 
year 2016?
    Answer. Automated Passport Control (APC) kiosks continue to be a 
large part of CBP's efforts at improving the efficiency of the overall 
inspection process. Significant wait time reductions can be expected 
during an airports initial year of APC usage; however, in subsequent 
years, assessing APC's exact impact on wait times from year to year 
becomes more difficult. CBP launched 32 APC kiosks at Honolulu 
International Airport on February 29, 2016, and a launch of APC kiosks 
at Baltimore-Washington International Airport is planned before the end 
of the fiscal year. These changes, as well as a continued effort to add 
more APC kiosks at existing locations. Other APC enhancements such as 
the recent addition of B1/B2 visitor visa holders to the travelers 
eligible for APC are expected to continue the trend of reducing wait 
times and improving efficiency in the airport environment.
    Mobile Passport Control (MPC) has already been deployed at Atlanta, 
Miami, Chicago, Seattle, San Francisco, Fort Lauderdale, Dallas-Fort 
Worth, Newark, JFK, Orlando, Denver, and San Jose. The goal of MPC is 
to deploy to the top 20 U.S. airports by the end of the year. Upcoming 
MPC deployments that are anticipated over the next several months 
include Minneapolis, Raleigh-Durham, Tampa, and Dulles.
    While the travel wait times at the airport by MPC users is reduced 
significantly after deployment, the overall wait times by the rest of 
the travelers in the Federal Inspection Services (FIS) area varies and 
dependent upon the percentage of travelers using MPC, and the current 
configurations, processes, and staff levels at the different airports.
    With regards to percentage of travelers using MPC, it starts out 
from zero percent when deployed and grows from there and is widely 
influenced by the amount of the awareness and promotion of the new 
technology through a cooperative effort between CBP, airport 
authorities, and airlines.
    The overall wait time of the rest of the travelers in the FIS area 
has been shown to go down as MPC usage increases. The program is in the 
early stages, but CBP will conduct time and motion studies to further 
document the efficiencies.
    One such study performed at Miami International Airport in June of 
2015 found that the average inspection time for MPC travelers was 23 
seconds per person in Primary, approximately 156 travelers per hour, 
compared to the overall average inspection time in Primary for APC 
travelers which was 80 seconds at the APC kiosk and 12 seconds at the 
APC podium. Travelers who use MPC basically save time at the airports 
by not having to use the APC kiosks upon arrival, and instead submit 
information ahead of time using the MPC app on their wireless device to 
generate a CBP generated receipt (aka, bar code) which then is verified 
by a CBP officer using a scanner. The study indicated that increasing 
MPC usage will reduce the number of travelers using APC. The impact 
will be that, once more travelers are eligible to use APC (non-Visa 
Waiver travelers), wait times at APC kiosks will be reduced. The study 
illustrated that more than 95 percent of travelers at the point of 
inspection understood how to use the MPC process.
    Question. Do you intend to use this technology in any overseas 
preclearance locations?
    Answer. It is anticipated that MPC will be deployed at Preclearance 
sites (i.e., Toronto, Montreal, etc.), but their deployment schedules 
have not been determined yet.
    Question. Additionally can you provide the committee with an update 
on the Department's efforts to develop passenger wait time performance 
metrics and operational plans to reduce wait times at the ports of 
entry with the highest passenger volumes?
    Answer. DHS is committed to establishing strong metrics to track 
performance; and such metrics take into account CBP's priority mission 
of national security, in addition to CBP's mission to facilitate 
legitimate passenger travel. Accordingly, CBP has developed terminal 
level dashboards that monitor service level improvements and overall 
success in enabling a strong security posture that facilitates travel. 
These dashboards include, in addition to wait times, metrics such as: 
travel volume, hours staffed, cycle time, and best practices 
implemented. The dashboards are calculated for each of the major 
gateway airports down to the terminal level, reported on a monthly 
basis, and available to the public on CBP.gov/travel. However, it is 
important to note that CBP does not have a wait time standard or goal; 
CBP's security mission cannot be jeopardized to meet the mandate of a 
wait time goal. At the same time, CBP remains committed to its role in 
facilitating legitimate travel and continues taking steps to improve 
the international arrivals process.
    Given the unique nature of the international arrivals process as 
encompassing both private and public sector processes, a myriad of 
factors may affect wait times and a traveler's experience such as gate 
assignments, walk times, baggage delivery times, runway access, late or 
early arriving aircraft, and weather. Accordingly, while CBP continues 
to implement its Resource Optimization Strategy to build greater 
efficiencies and improve its processes to secure and facilitate travel, 
CBP also continues to work with the private sector to address 
challenges in the overall arrivals process.
    For example, CBP in partnership with stakeholders at the top 17 
airports developed action plans to improve the international arrivals 
process at each airport. These Airport-Specific Action Plans represent 
a significant commitment from CBP to examine and improve its business 
processes to ensure the strictest standards of security while making 
the overall arrivals process more welcoming, interactive, and secure. 
The development of these action plans included discussion between CBP 
and stakeholders of the challenges facing each location and steps that 
both private and government could take to improve the international 
arrivals process. The plans incorporate the information discussed and 
have been used over the last several years to guide improvements.
    These initiatives both within CBP and in partnership with the 
private sector have shown positive results at the top 17 airports, even 
as travel continued to increase at these locations in fiscal year 2015. 
Compared to fiscal years 2014 and 2013, average daily traveler volume 
across these locations increased by 10 percent and 19 percent, 
respectively. Despite this increase, average wait times decreased by 9 
percent from fiscal year 2014 to fiscal year 2015.
    In addition to local-level plans specific to each airport's 
international arrivals facility, the Airport-Specific Action Plans 
included plans, where appropriate, for increased participation in 
national-level initiatives to innovate facilitation, such as Global 
Entry, Automated Passport Control, and Mobile Passport Control. Across 
the top 17 airports in fiscal year 2015, these automated solutions 
confirmed a daily average of 35 percent of passengers; an increase from 
a daily average of 20 percent of passengers in fiscal year 2014.
    The data from CBP's latest Traveler Satisfaction survey, 
administered at the top 25 airports between January and August 2015, 
also demonstrates the effect of CBP's continued efforts:
  --Overall, 93 percent of travelers felt welcomed to the United 
        States.
  --The number of travelers who perceived waiting 15 minutes or less 
        increased from 63 percent in 2012 to 88 percent in 2015.
  --Approximately 80 percent of travelers were satisfied with CBP 
        officer attributes such as professionalism, being welcoming, 
        efficient, and communicating clearly. Approximately 91 percent 
        of travelers were satisfied with the overall inspection area.
                       unattended ground sensors
    Question. Unattended ground sensors (UGS) serve as a key technology 
component of our Northern and Southern border strategy. However, it 
appears the underlying technology contained in the vast majority of the 
Border Patrol's currently deployed UGS have not kept up with recent 
advances. In fact, technology developed by the Department's own Science 
and Technology Directorate (S&T) to address known UGS capability gaps 
has not yet been deployed even though it was thoroughly tested several 
years ago.
    Please update the subcommittee on the Department's plans to deploy 
UGS containing the improved technology developed by S&T and provide an 
explanation for the delay in providing this crucial new technology to 
Border Patrol Agents deployed along our Southern and Northern borders.
    Answer. The unattended ground sensors (UGS) industry is rapidly 
advancing. While CBP strives to maintain the latest technology, it is 
not always practical or cost-effective to continually refresh our 
inventory as new features are released. Many recent advancements can 
easily increase purchase and operational costs to a level 
disproportionate to any benefit of new functionality.
    Within the past several months, S&T has developed some very 
promising sensor products that CBP already has deployed in small 
quantities. Currently there is no manufacturing channel available and 
the products have limited availability. These products have already 
demonstrated strong capability with an indication of a low price point. 
If manufacturing costs are within a reasonable range of prototype 
costs, CBP may increase its inventory of these devices as soon as an 
appropriate manufacturing channel is established.
    Several years ago, after testing devices from multiple 
manufacturers, S&T provided feedback and recommendations to industry. 
Some manufacturers subsequently adjusted hardware and algorithms, and 
have been working toward the ability to be rapidly integrated with CBP 
infrastructure at a competitive price point. We will continue to 
monitor industry's ability to feasibly meet our requirements. As 
manufacturers present suitable products with a strong cost/benefit 
ratio, we may further diversify of our inventory.
               agriculture specialist staffing shortages
    Question. CBP's fiscal year 2017 budget submission contains no 
additional funding to address CBP's Agriculture Specialist (CBPAS) 
staffing shortage, even though the Agriculture Specialists Resource 
Allocation Model (AgRAM) shows an approximate need for 630 additional 
frontline CBPAS and supervisors to address current workloads through 
fiscal year 2017.
    On January 1, 2016, USDA raised Agriculture and Plant Health 
Inspection Service (APHIS) user fees that support in part CBP's 
Agriculture Specialist staffing. Prior to this increase in APHIS user 
fees, CBP's reimbursement rate for full eligible CBPAS expenses in 
fiscal year 2015 was 84 percent. According to CBP, the APHIS rate 
change should allow CBP to achieve full cost recovery in fiscal year 
2017. CBP's fiscal year 2017 budget submission, however, reflects 
funding for only 2,417 CBPAS in fiscal year 2017, not the 3,048 CBPAS 
as called for by the AgRAM.
    How does CBP propose to fund the hiring of the additional CBP 
Agriculture Specialists as called for in your agency's own AgRAM?
    Answer. The Agricultural Quarantine and Inspection (AQI) fee 
increase that became effective December 28, 2015, is anticipated to 
provide full cost recovery of the current on-board CBPAS positions in 
fiscal year 2017. The budget submission sustains the reduced 
appropriated requirement relative to the increase in fees to full cost 
recovery. Updated projections for AQI collections in fiscal year 2017 
are included in the AgRAM model. This model projects that the healthy 
U.S. economy will generate increased AQI collections capable of 
supporting the hiring of up to an additional 145 CBPAS in fiscal year 
2017. The fiscal year 2017 Congressional Justification does reflect 
this updated projection for total anticipated CBP AQI fee collections 
and prior year carryover of $617.099 million for fiscal year 2017, but 
does not explicitly list an increase to the number of positions 
supported by the AQI fees.
    As reflected in the AgRAM, this increase in expected collections 
will reduce the CBPAS requirements gap to only 174 specialists. This 
assumes the enactment of the COBRA and IUF legislative proposals 
supported by the fiscal year 2017 President's budget request.
    As noted in the CBP fiscal year 2017 Congressional Justification--
Operations and Support Appropriation:

The gap in CBP Agriculture Specialist staffing will be mitigated 
through the expansion of agriculture related Business Transformation 
Initiatives like the expansion of Enforcement Link Mobile Operations-
Cargo (ELMO-c) initiative to outfit CBP Agriculture Specialists with 
mobile devices. The mobile devices allows CBP Agriculture Specialists 
to release more cargo in a shorter amount of time since the do not have 
to return to the office. Full deployment of mobile devices to all CBP 
Agriculture Specialists is expected to be completed by the end of 2016. 
Also, The Agriculture Pest Exclusion Coordinator Specialist (APECs) 
program was expanded during fiscal year 2015. This innovative program 
expands upon the scientific expertise of our CBP Agriculture Specialist 
cadre, specifically those who actively seek to increase and exercise 
their Cargo Release Authority (CRA) and take on the additional 
responsibility of facilitating trade through the identification of less 
significant, non-reportable plant pests and organisms. The APECs 
program, coupled with CRA, allows cargo that is found contaminated with 
a less significant, non-reportable plant pest to proceed more quickly 
and efficiently through the POE. The expansion of the APECs program to 
Nogales, Arizona, Otay Mesa, California, and Laredo, Texas, POEs has 
facilitated the release of approximately 600 agriculture shipments a 
month. Collectively, that equates to about 100 staff hours per month 
saved which is in turn redirected to high risk agricultural exams and 
activities within the ports. This program will continue to be expanded 
through fiscal year 2017.
                                 heroin
    Question. Mr. McAleenan and Mr. Ragsdale, my State of New Hampshire 
is reeling from heroin and other opioid-related deaths, which have 
skyrocketed in recent years. I also sit on the Senate Foreign Relations 
Committee and know that their Bureau of International Narcotics and Law 
Enforcement Affairs is doing important work in the Western Hemisphere 
to counter the flow of drugs into the United States.
    Could you describe some of the cooperation between CBP, ICE and 
State's INL Bureau? Are you looking at ways to expand this cooperation?
    Answer. The availability and consumption of heroin continues to 
increase in the United States. A contributing factor for the increase 
in demand for heroin appears to be related to prescription opioid users 
switching to cheaper and more readily available heroin. Concurrently, 
our CBP seizures of heroin also have increased particularly along the 
United States-Mexico border where interdictions rose 22.3 percent in 
2015 compared to the previous year. Heroin seizures along the Southwest 
border accounted for 84 percent of all heroin seized in fiscal year 
2015. Mexico and South America are the two main source countries for 
heroin entering the United States, combining for 53 and 42 percent 
respectively.
    In response to the threat of heroin and other illicit drugs 
entering our country, CBP has collaborated with U.S. Immigration and 
Customs Enforcement (ICE) and with the U.S. Department of State's (DOS) 
Bureau of International Narcotics and Law Enforcement (INL) to 
strengthen capacity in our partner agencies and host governments 
throughout the Western Hemisphere. Supported by INL funding, CBP and 
ICE provide capacity training including in the areas of narcotics 
interdiction and enforcement, smuggling, interview techniques, use of 
non-intrusive inspection equipment technologies and illicit currency 
interdiction. Underscoring our collaboration is the sharing of 
information to attack transnational criminal organizations that are 
behind criminal trafficking and smuggling of drugs, people, contraband, 
currency, etc.
    Within our CBP Office of International Affairs, we maintain a 
Technical Assistance Division that delivers International Border 
Interdiction and other training funded by INL to countries in the 
hemisphere and even worldwide that includes instruction on the 
principles of smuggling trends, passenger selectivity and targeting, 
internal carriers (swallowers), currency interdiction, human smuggling, 
training in vehicle, vessel, and airline searches, post seizure 
analysis, trend analysis, targeting and risk management, Canine 
Enforcement Training, Non-Proliferation of Weapons of Mass Effect/
Destruction, and training in Narcotics Identification to include 
laboratory science services training. We believe this training produces 
results with our partners. For example, on August 25, 2015, Peruvian 
authorities seized nine kilos of valued at $1.07 million USD. In the 
last 6 months, our CBP Technical Assistance Division has conducted 
anti-smuggling training in heroin and opiate source countries such as 
Panama, Guatemala, Columbia, Ecuador, Peru, and Mexico in the Western 
Hemisphere.
    Additionally, CBP has deployed seven advisors in Central America 
since the summer of 2014 to work with host nation counterparts to 
facilitate technical assistance efforts at and between ports of entry 
and at land borders and to assist with the development of tactical 
vetted units. CBP and INL signed a funding agreement to support the 
advisors, as part of the Central America Regional Security Initiative 
(CARSI), to continue to provide capacity building and ultimately to 
place nine permanent advisors throughout Central America.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                              preclearance
    Question. As mentioned in Deputy Commissioner McAleenan's 
testimony, Secretary Johnson announced on May 29, 2015, the Department 
of Homeland Security's intent to enter into negotiations to expand air 
preclearance operations to 10 new foreign airports, located in nine 
separate countries.
    On March 16, 2015, however, the United States and Canada signed an 
agreement to expand U.S. preclearance operations in Canada in the 
marine, land, air, and rail sectors. On March 1, I joined with Senator 
Murkowski to introduce S. 2612, which will facilitate the full 
implementation of this agreement. Expansion of preclearance operations 
under this new agreement with Canada is of particular interest to 
Vermont, and beneficial to every State in the United States interested 
in further strengthening and expanding trade and travel.
    Once S. 2612 is enacted, what further steps are needed for CBP to 
move forward on announcing the new rail, air, land, and marine 
preclearance facilities in Canada?
    Answer. To advance progress on the development of preclearance 
locations announced on March 10, 2016, as part of the Joint Statement 
of Intent Between the Government of Canada and the Government of the 
United States of America Regarding Preclearance Expansion (``Joint 
Statement''), namely Billy Bishop Toronto City Airport, Quebec City 
Jean Lesage International Airport, Montreal Central Station, and Rocky 
Mountaineer, the United States-Canada Land, Rail, Marine, and Air 
Transport Preclearance Agreement (LRMA) must enter into force. Such 
entry into force requires legislation to be enacted in the United 
States that provides U.S. courts with appropriate extraterritorial 
jurisdiction over actions by preclearance officers that occur abroad. 
At the same time, Canada needs to introduce and pass a bill to provide 
implementing authority for the LRMA and to replace the existing 
Preclearance Act along with updating related regulations.
    In the United States, the legislation you introduced, S. 2612, the 
Promoting Travel Commerce and National Security Act of 2016, would 
provide the necessary authority to exercise extraterritorial 
jurisdiction.
    Currently, our Canadian partners estimate a bill will be introduced 
in Parliament in June 2016. Once the LRMA enters into force CBP will 
work with the four locations to ensure they meet all of the terms and 
conditions of the LRMA, to include cost recovery for the deployment of 
CBP officers.
    With respect to facilities not mentioned in the March 10th Joint 
Statement, for facilities not mentioned in the March 10th Joint 
Statement, CBP announced another open season for preclearance expansion 
this spring whereby interested locations in Canada can submit 
applications to be considered for preclearance operations under that 
process.
    Question. There are many committed partners on both sides of the 
Northern border spending time and resources preparing new sites for 
preclearance expansion. Unfortunately, CBP will only respond to 
requests for technical advice, stalling progress. Are you willing to 
work with the Canadian Government and new site applicants in Canada to 
move forward with facility design approvals as Congress works to pass 
implementing legislation?
    Answer. Yes. In fact, Canada and the United States convened the 
Preclearance Consultative Group (PCG) on May 10, 2016, to discuss 
implementation issues at the announced locations and possible expansion 
to other sites in both countries over the short and long term.
    CBP is also willing to work with new site applicants and other 
interested parties to move forward in the process and have already 
initiated and led a continuing dialogue with the Pacific NorthWest 
Economic Region (PNWER).
                        northern border staffing
    Question. I appreciate that CBP has been working hard to fill the 
2,000 positions for which Congress allocated funding over 2 years ago. 
However, I remained frustrated that staffing along the Northern border 
remains a struggle.
    The Consolidated Appropriations Act of 2016 included language 
requiring CBP to work with OPM to determine how to incentivize 
deployments and retention of staff along the Northern and Southern 
borders at such locations already, and to fully staff these locations, 
and requiring CBP to include an updated workload staffing model with 
the fiscal year 2017 budget detailing specific staffing and funding 
for, and implementation of, planned border enforcement initiatives by 
port of entry.
    The Vermont ports of entry received 10 additional positions, 5 in 
Highgate and 5 in Derby Line. Due to attrition and the slow pace of new 
hires, ports of entry in Vermont have seen a reduction of 25 officers 
from 2009 to 2015, and Vermont is also suffering a shortage from its 
baseline numbers from the new hire sites in Highgate and Derby. What 
steps will be taken to ensure that ports of entry in Vermont will be 
fully staffed in 2016?
    Answer. Currently, CBP has reached 95.5 percent of the CBPO 
authorized staffing level in Vermont. As of March 21, 2016, U.S. 
Customs and Border Protection (CBP) has 41 candidates in the pre-
employment hiring process to fill the vacant Customs and Border 
Protection Officer (CBPO) positions in Vermont.
    Question. What measures has the Department implemented to help 
incentivize staff to fill positions and combat attrition in the hard to 
staff areas on the Northern border? I believe that hiring locally will 
help in Vermont. What efforts are in place by DHS in order to hire 
local residents when positions are available?
    Answer. CBP has identified and allocated funding to make available 
recruitment incentives (which may equal up to 25 percent of base pay 
for 3 years) for hard-to-fill and remote ports to incentivize 
applicants to select these locations. CBP has had continuous open 
announcements for CBPO positions since October 2015 to recruit Customs 
and Border Protection Officers (CBPO). In the last year, these 
announcements, open to all U.S. citizens, have generated over 40,755 
viable applicants for CBPO positions. CBP has over 1,600 local 
recruiting events planned for this year to encourage local residents to 
apply for CBPO positions in their communities. At this time, there are 
no incentives offered for locations in Vermont; however, CBP 
continually evaluates the use of incentives for hard-to-fill locations 
and areas where a critical staffing shortage exists.
    Question. Working off the aggregate baseline numbers both for the 
Northern border and Vermont, where is CBP in respect to reaching your 
targeted numbers?
    Answer. The current CBP Officer frontline staffing numbers for 
Vermont are as follows: CBP has reached 95.5 percent of the CBPO 
authorized staffing level, and 83.3 percent of the CBP Agriculture 
Specialists authorized staffing level. Overall Northern border numbers 
equals 94.9 of the CBPO authorized staffing level, and 99.5 percent of 
the CBP Agriculture Specialist authorized staffing level.
    The current CBP Border Patrol Agent frontline staffing numbers for 
Vermont are as follows: CBP has reached 100 percent of its authorized 
staffing level in Vermont and overall on the Northern border. The 
overall Northern border target number is 2,047 which is 100 percent of 
the authorized staffing level for the Northern border.
                       air and marine operations
    Question. CBP is in the process of realigning its air and marine 
operations, which will have the net effect of reducing staff at the 
Plattsburgh Air Unit. While I understand the need to shift resources, I 
am concerned about the impact these changes are having in providing 
support to local law enforcement in the sector.
    During the past fiscal year, how many requests did the Plattsburgh 
Air Unit receive for support from local law enforcement and of these 
requests, how many were they able to fulfill?
    Answer. For fiscal year 2015, the U.S. Customs and Border 
Protection (CBP), Air and Marine Operations (AMO), Plattsburgh Air Unit 
conducted 134 missions for a total of 303.8 flight hours assisting 
State and/or local law enforcement.
    For fiscal year 2016 year to date, the Plattsburgh Air Unit 
conducted 21 missions for a total of 41.1 flight hours assisting State 
and/or local law enforcement.
    The AMO Plattsburgh Air Unit did not support 13 requests from State 
and local law enforcement beginning in fiscal year 2015 through March 
28, 2016, for the following reasons:
  --Asset Unavailable--Maintenance: 4 No Launches
  --Asset Unavailable--Temporarily relocated: 1 No Launch
  --Cancelled by Requestor: 5 No Launches
  --Information not Timely: 1 No Launch
  --Weather: 3 No Launches
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. How is CBP planning to communicate with local law 
enforcement regarding the availability and scope of support for the 
coming year?
    Answer. The U.S. Customs and Border Protection (CBP), Air and 
Marine Operations (AMO), Plattsburgh Air Unit will engage in a 
proactive communication initiative so that the partnering agencies are 
fully informed of the ``Air Support Request'' (ASR) process ensuring 
that their requests are received, vetted, and prioritized accordingly. 
The communication will include direct contact information for key unit 
personnel with a contingency option to contact the Air and Marine 
Operations Center (AMOC); a facility staffed 24/7 to facilitate such 
requests. The Plattsburgh Air Unit will continue to vigorously assist 
the various Federal, State, county, local, and Tribal law enforcement 
agencies in Vermont, New York and New Hampshire.
                     children in immigration court
    Question.I was appalled to learn recently that children, including 
those as young as three and 4 years old, are expected to understand 
immigration law and represent themselves in immigration court. I have 
already raised this issue with the Attorney General who is responsible 
for the operation of the immigration courts. But, as the agency 
representing the government in immigration court, ICE also plays a 
critical role in allowing this to happen.
    Notwithstanding the Department's enforcement priorities, why does 
ICE pursue removal cases against young children who are not represented 
by a lawyer in immigration court? Is it ICE's position that a child can 
adequately represent himself or herself in immigration court without 
counsel?
    Answer. Secretary Johnson's November 20, 2014 memorandum, 
``Policies for the Apprehension, Detention and Removal of Undocumented 
Immigrants,'' sets forth the enforcement priorities to which the 
Department of Homeland Security (DHS) should direct its resources. 
Unaccompanied children, such as those who unlawfully enter the United 
States after January 1, 2014, may qualify as enforcement priorities 
under this memorandum.
    Unaccompanied children apprehended by DHS are transferred to the 
custody of the U.S. Department of Health and Human Services' Office of 
Refugee Resettlement (ORR). While caring for unaccompanied children in 
the United States, ORR is responsible for ensuring that, to the 
greatest extent practicable, all of these children have access to legal 
representation and that sponsors of unaccompanied children receive 
legal orientation presentations.
    U.S. Immigration and Customs Enforcement cannot comment further 
because the issue of legal representation of minors in immigration 
court is the subject of ongoing litigation: F.L.B. v. Lynch, No. 14-
1026 (W.D. Wash. filed July 9, 2014).
                         unaccompanied children
    Question. The Administration itself has acknowledged the violence 
in the Northern Triangle as a humanitarian crisis. As Ranking Member on 
the Appropriations Subcommittee on State and Foreign Operations, I 
routinely hear from the Administration about how devastated and 
dangerous these Central American countries are. In fact, a Department 
of State Congressional Notification from January 2016 warned that El 
Salvador risks ``losing an entire generation of young people due to 
violent conflict'' and notes that the already stunning rates of 
violence increased dramatically ``following the deterioration of a gang 
truce forged in 2012, driving a surge of migration of unaccompanied 
children to the United States.''
    What steps is ICE taking to ensure that individuals removed from 
the United States to Honduras, El Salvador and Guatemala, especially 
those who came to the United States as unaccompanied children, are 
safely repatriated to their home countries and not placed at risk of 
serious harm or death upon their repatriation?
    Answer. The Immigration and Nationality Act (INA) permits 
individuals arriving in the United States to seek asylum if they fear 
returning to their homelands, and U.S. Immigration and Customs 
Enforcement (ICE) helps ensure that such individuals are able to avail 
themselves of the robust U.S. asylum process, which includes multiple 
levels of review and the privilege of being represented by counsel at 
no expense to the government. Moreover, the Trafficking Victim's 
Protection Reauthorization Act (TVPRA) 2008 provides specific 
additional safeguards for unaccompanied children in the immigration 
enforcement process, including measures related to safe 
repatriation.\1\
---------------------------------------------------------------------------
    \1\ Pursuant to section 235(a)(5)(C) of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act of 2008, Public Law 
110-457, December 23, 2008, 122 Stat. 5044, ``the Secretary of State 
and the Secretary of Health and Human Services, with assistance from 
the Secretary of Homeland Security, shall submit a[n annual] report to 
the Committee on the Judiciary of the Senate and the Committee on the 
Judiciary of the House of Representatives on the efforts to improve 
repatriation programs for unaccompanied alien children.'' ICE defers to 
that report for additional information.
---------------------------------------------------------------------------
    ICE has taken the following steps to safely repatriate 
individuals,\2\ including unaccompanied children, to Honduras, El 
Salvador, and Guatamala:
---------------------------------------------------------------------------
    \2\ Safe repatriation is a collaborative, inter-agency effort. In 
order to enhance the efforts of the United States to prevent 
trafficking in persons, the Secretary of Homeland Security, in 
conjunction with the Secretary of State, the Attorney General, and the 
Secretary of Health and Human Services, develops policies and 
procedures to ensure that unaccompanied children in the United States 
are safely repatriated to their country of nationality or of last 
habitual residence.
---------------------------------------------------------------------------
                                honduras
    ICE field offices engage as early in the process with the Honduran 
local consulates as possible to identify, seek reunification, and issue 
travel documents for their nationals. The ICE attache, in conjunction 
with the U.S. Agency for International Development and the Department 
of State, supports the Government of Honduras Taskforce, which was 
created in 2014 and is responsible for the reception and reintegration 
of repatriated nationals, especially families and children.
    The Government of Honduras does not allow mixed ICE Air Charters 
(adults and minors) at this time. All adults are removed via ICE Air 
Operations (IAO) charters, while family units and unaccompanied 
children are routinely removed via commercial charters, due to low 
numbers.
    ICE ensures all removals are scheduled during local daylight hours. 
Further, and at the request of the Government of Honduras, these 
returns are made solely to the San Pedro Sula Airport. Honduras has 
three operational reception centers in this area, two for adults and 
one for family units and minors. The reception center for repatriated 
minors offers food, water, basic medical care, and assistance with 
family reunification.
                              el salvador
    ICE takes collaborative steps with the Government of El Salvador to 
facilitate Salvadoran repatriations and to ensure the safe reception 
and reintegration of Salvadoran nationals. The Government of El 
Salvador allows unaccompanied children to be repatriated via IAO 
charters. However, to date, ICE Enforcement and Removal Operations 
(ERO) continues to remove all unaccompanied children to El Salvador by 
deploying escorting ICE ERO personnel on commercial aircrafts. To 
provide the safest of conditions upon arrival, the ICE office in El 
Salvador ensures that Government of El Salvador reception coverage and 
family presence is confirmed and that environmental factors, such as 
arrival day and time, best mitigate known public safety risks.
    Since approximately mid-2012, the ICE office in El Salvador was 
first to establish a partnership with the International Organization 
for Migration to develop the technical design of a new reception center 
based upon a redefined vision, mission, and set of standards for 
receiving returning migrants. This design drew upon ICE's expertise and 
best practices in building internal and external partnerships in 
managing immigration affairs in order to efficiently unify human, 
information technology, facility, legal, and financial resources from 
independent agencies. The ICE attache in El Salvador proactively 
assists the Government of El Salvador with messaging to inform its 
citizens of the dangers of the illegal journey to the southwest border 
of the United States and the lack of U.S. immigration benefits.
                               guatemala
    ICE works closely with and supports the Guatemalan agencies 
responsible for the reception and reintegration of their repatriated 
nationals. The Government of Guatemala allows unaccompanied children 
who are over the age of 14 to be repatriated via IAO and are received 
Monday through Friday between the hours of 9:00 a.m.-1:00 p.m. at the 
Repatriation and Reception Center. ICE supports the Government of 
Guatemala by providing technical advice, situational assessments, 
requests for assistance from other U.S. Government components, and 
support on peripheral issues.
                              ice arrests
    Question. I have read with concern reports of a recent incident in 
Schaumburg, Illinois, in which ICE agents allegedly used false 
pretenses to lure an individual, Reynold Garcia, out of church in order 
to arrest him. Please provide complete details of the events leading to 
ICE's arrest of Reynold Garcia on January 3, 2016. In addition to your 
complete response, please include answers to the following specific 
questions.
    Answer. U.S. Immigration and Customs Enforcement (ICE) arrested Mr. 
Garcia in Schaumburg, Illinois, on January 3, 2016, in a McDonald's 
parking lot. Mr. Garcia was previously removed to Mexico on December 9, 
2014, and illegally reentered the United States, making him a Priority 
2(c) ICE enforcement priority according the November 20, 2014 
Department of Homeland Security memorandum Policies for the 
Apprehension, Detention and Removal of Undocumented Immigrants. ICE 
cannot disclose additional information relating to this alien without a 
privacy waiver, but ICE officers conduct enforcement actions in 
accordance with controlling law, including the Fourth Amendment, and 
applicable ICE guidance, and are trained accordingly. ICE uses various 
law enforcement procedures and tactics, such as ruses and other 
specialized techniques, to locate and arrest aliens subject to targeted 
enforcement actions. These enforcement actions are conducted in a 
manner consistent with controlling law and policy, in the interest of 
successfully locating and effectuating arrests of targeted individuals. 
ICE's law enforcement procedures and tactics are also utilized in the 
interest of protecting the safety of the public, the arrestee, and ICE 
personnel, and to address the growing trend of non-compliance with ICE 
law enforcement officers when conducting targeted immigration 
enforcement actions.
    Question. Where was Garcia when ICE initiated communication with 
him? Were ICE agents aware of his location? If so, how? If not, why 
not?
    Answer. ICE cannot disclose additional information relating to this 
specific alien without a privacy waiver, but ICE officers conduct 
enforcement actions in accordance with the law, including the Fourth 
Amendment, and are trained accordingly.
    Question. What form did ICE's communication with Garcia take? If it 
was texts, from whose phone did ICE initiate the texts to Garcia? 
Please provide a copy of the ICE initiated texts sent to Garcia. What 
other forms of ICE initiated communication occurred with Garcia that 
day?
    Answer. ICE cannot disclose additional information relating to this 
specific alien without a privacy waiver.
    Question. Did supervisors approve the tactics used by the ICE 
agents involved in Garcia's arrest?
    Answer. ICE Enforcement and Removal Operations Headquarters 
received details of the encounter from the field office and is 
satisfied that applicable ICE procedures were followed in the course of 
this apprehension.
    Question. Did ICE work with any local law enforcement agencies in 
the process of Garcia's arrest?
    Answer. No.
    Question. What is ICE's policy about contacting targets of 
enforcement to create an opportunity for arrest? In addition to your 
complete response, please include answers to the following specific 
questions:
  --Can ICE agents contact people in places of worship?
  --Educational institutions?
  --Healthcare facilities?
  --Are there any prohibited places where ICE officers may not contact 
        targets of enforcement?
    Answer. ICE's Policy No. 10029.2: Enforcement Actions at or Focused 
on Sensitive Locations, issued on October 24, 2011, is designed to 
ensure that targeted enforcement actions neither occur at nor are 
focused on sensitive locations, such as schools, churches and 
hospitals, absent exigent circumstances or prior written approval from 
specified officials at ICE headquarters.
    Question. What steps are ICE agents permitted to take to encourage 
a target to leave a sensitive location in order to create an 
opportunity for arrest? Can ICE agents use deception (i.e., using a 
family member's cell phone? using false pretenses generally?) to 
encourage a target to leave a sensitive location?
    Answer. ICE officers conduct enforcement actions in accordance with 
the law, including the Fourth Amendment, and are trained accordingly. 
ICE uses various law enforcement procedures and tactics, such as ruses 
and other specialized techniques, to locate and arrest aliens subject 
to targeted enforcement actions. These enforcement actions are 
conducted in a manner consistent with controlling law and policy, in 
the interest of successfully locating and effectuating arrests of 
targeted individuals. ICE's law enforcement procedures and tactics are 
also utilized in the interest of protecting the safety of the public, 
the arrestee, and ICE personnel and to address the growing trend of 
non-compliance with ICE law enforcement officers when conducting 
targeted immigration enforcement.
    Question. Did ICE investigate the conduct of the agent(s) involved 
in the arrest of Reynold Garcia? If so, what determinations have been 
made? Specifically, did their actions comply with DHS policy on 
enforcement actions at sensitive locations such as churches? If so, 
why? If not, why not?
    Answer. Yes, the conduct of the officers involved in this arrest 
was consistent with ICE Policy No. 10029.2: Enforcement Actions at or 
Focused on Sensitive Locations (Oct. 24, 2011). The enforcement action 
was not focused on a sensitive location but rather was focused on a 
target who was at a sensitive location prior to the enforcement action. 
Through ICE's actions, an arrest was made without incident away from 
the church, and without disruption to the functions of the church.
    Question. ICE's policies and practices regarding the use of ruses 
in enforcement operations? If so, why? If not, why not?
    Answer. ICE officers, including those involved in this case, 
conduct enforcement actions in accordance with the law, including the 
Fourth Amendment, and are trained accordingly. ICE uses various law 
enforcement procedures and tactics, such as ruses and other specialized 
techniques, to locate and arrest aliens subject to targeted enforcement 
actions. These enforcement actions are conducted in a manner consistent 
with controlling law and policy, in the interest of successfully 
locating and effectuating arrests of targeted individuals. ICE's law 
enforcement procedures and tactics are also utilized in the interest of 
protecting the safety of the public, the arrestee, and ICE personnel, 
and to address the growing trend of non-compliance with ICE law 
enforcement officers when conducting targeted immigration enforcement. 
The actions taken were in accordance with controlling law and 
applicable ICE guidance.
    Question. If ICE has completed an investigation of this incident, 
please provide the results of the investigation.
    Answer. ICE Enforcement and Removal Operations Headquarters 
received details of the encounter from the field office and is 
satisfied applicable ICE procedures were followed in the course of this 
apprehension.
    Question. If the conduct of the agent(s) involved violated current 
policies and practices, does ICE plan to follow up with disciplinary 
action? If not, why not?
    Answer. As noted in above, the actions taken in this case were in 
accordance with controlling law and applicable ICE guidance.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
    Question. Section 605 of the Customs Authorization of 2015 requires 
Customs and Border Protection to distribute all interest and duties 
collected under the anti-dumping and countervailing duties (AD/CVD) 
order covered by the Continued Dumping and Subsidy Offset Act (Byrd 
Amendment) to the injured domestic industries.
    Please provide the total amount of interest payments Customs and 
Border Protection received under customs bonds for AD/CVD duties by 
order in fiscal years 2015 and 2016 but withheld from Continued Dumping 
and Subsidy Offset Act distributions.
    Answer. This information is not presently available. CBP is in the 
process of reviewing payments received by CBP on or after October 1, 
2014, that are within the scope of section 605(c)(1)(A) and (B). After 
the universe of impacted payments is identified, CBP must manually 
review each impacted entry to ascertain the amount of delinquency 
interest, equitable interest, and 19 U.S.C. 580 interest that was not 
previously distributable by law, but which is now distributable 
pursuant to section 605. Those amounts will be deposited into the CDSOA 
Special Account for distribution as part of the fiscal year 2016 
distribution in November 2016. Additionally, amounts available for 
distribution in November will be further impacted by additional 
payments received during fiscal year 2016 and by any re-liquidations 
that occur between now and the end of the fiscal year.
    Question. Please provide the separate totals for the five orders on 
which the largest amounts of interest were withheld.
    Answer. This information is not presently available. CBP is in the 
process of reviewing payments received by CBP on or after October 1, 
2014 that are within the scope of section 605(c)(1)(A) and (B). After 
the universe of impacted payments is identified, CBP must manually 
review each impacted entry to ascertain the amount of delinquency 
interest, equitable interest, and 19 U.S.C. 580 interest that was not 
previously distributable by law, but which is now distributable 
pursuant to section 605. Those amounts will be deposited into the CDSOA 
Special Account for distribution as part of the fiscal year 2016 
distribution in November 2016. Additionally, amounts available for 
distribution in November will be further impacted by additional 
payments received during fiscal year 2016 and by any reliquidations 
that occur between now and the end of the fiscal year.
    Question. Although section 605 of the Customs Authorization of 2015 
does not apply to such interest payments Customs and Border Protection 
received during fiscal year 2014, please provide the same information 
as if section 605 did apply to fiscal year 2014 interest payments.
    Answer. This information is not presently available. CBP is in the 
process of reviewing payments received by CBP on or after October 1, 
2014, that are within the scope of section 605(c)(1)(A) and (B). After 
the universe of impacted payments is identified, CBP must manually 
review each impacted entry to ascertain the amount of delinquency 
interest, equitable interest, and 19 U.S.C. 580 interest that was not 
previously distributable by law, but which is now distributable 
pursuant to section 605. Those amounts will be deposited into the CDSOA 
Special Account for distribution as part of the fiscal year 2016 
distribution in November 2016. In order to provide information 
concerning fiscal year 2014, CBP would need to perform each of these 
manual processes for fiscal year 2014. Performance of these processes 
with respect to fiscal year 2014 would hinder CBP's ability to meet its 
distribution deadline for the fiscal year 2016 distribution.
    Question. Deputy Commissioner McAleenan indicated that Customs and 
Border Protection would distribute the fiscal year 2015 interest 
payments subject to section 605 before the end of the year, as is 
required under the law. Because the government incorrectly withheld 
this interest from domestic producers, is it possible to provide 
distributions prior to that date?
    Answer. Prior to the enactment of section 605, the Government 
distributed all 19 U.S.C. 1677g interest that affected domestic 
producers were entitled to under the law. No interest was incorrectly 
withheld from domestic producers. Section 605 is new authority to 
provide for the distribution of delinquency interest, equitable 
interest, and 19 U.S.C. 580 interest in the circumstances described in 
section 605(c)(1)(A) and (B), in addition to the 1677g interest that is 
already distributed. Due to the complex nature of the distribution 
process, it is not possible for CBP to provide distributions prior to 
November 2016.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. And with that, this subcommittee will stand 
in recess.
    [Whereupon, at 4:14 p.m., Tuesday, March 8, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
